<html>
<title> - HEARING TO REVIEW HORTICULTURE PRIORITIES FOR THE 2013 FARM BILL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
    HEARING TO REVIEW HORTICULTURE PRIORITIES FOR THE 2013 FARM BILL

=======================================================================


                                HEARING

                               BEFORE THE

  SUBCOMMITTEE ON HORTICULTURE, RESEARCH, BIOTECHNOLOGY, AND FOREIGN 

                              AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2013

                               __________

                            Serial No. 113-4


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
80-841                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              DAVID SCOTT, Georgia
MIKE ROGERS, Alabama                 JIM COSTA, California
K. MICHAEL CONAWAY, Texas            TIMOTHY J. WALZ, Minnesota
GLENN THOMPSON, Pennsylvania         KURT SCHRADER, Oregon
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
AUSTIN SCOTT, Georgia                JAMES P. McGOVERN, Massachusetts
SCOTT R. TIPTON, Colorado            SUZAN K. DelBENE, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  GLORIA NEGRETE McLEOD, California
MARTHA ROBY, Alabama                 FILEMON VELA, Texas
SCOTT DesJARLAIS, Tennessee          MICHELLE LUJAN GRISHAM, New Mexico
CHRISTOPHER P. GIBSON, New York      ANN M. KUSTER, New Hampshire
VICKY HARTZLER, Missouri             RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         WILLIAM L. ENYART, Illinois
DAN BENISHEK, Michigan               JUAN VARGAS, California
JEFF DENHAM, California              CHERI BUSTOS, Illinois
STEPHEN LEE FINCHER, Tennessee       SEAN PATRICK MALONEY, New York
DOUG LaMALFA, California             JOE COURTNEY, Connecticut
RICHARD HUDSON, North Carolina       JOHN GARAMENDI, California
RODNEY DAVIS, Illinois
CHRIS COLLINS, New York
TED S. YOHO, Florida

                                 ______

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                 ______

  Subcommittee on Horticulture, Research, Biotechnology, and Foreign 
                              Agriculture

                    AUSTIN SCOTT, Georgia, Chairman

VICKY HARTZLER, Missouri             KURT SCHRADER, Oregon, Ranking 
JEFF DENHAM, California              Minority Member
STEPHEN LEE FINCHER, Tennessee       SUZAN K. DelBENE, Washington
DOUG LaMALFA, California             JIM COSTA, California
RODNEY DAVIS, Illinois               MARCIA L. FUDGE, Ohio
CHRIS COLLINS, New York              ANN M. KUSTER, New Hampshire
TED S. YOHO, Florida                 JUAN VARGAS, California
                                     SEAN PATRICK MALONEY, New York


                                  (ii)



                             C O N T E N T S

                              ----------                              
                                                                   Page
Scott, Hon. Austin, a Representative in Congress from Georgia, 
  opening statement..............................................     1
    Prepared statement...........................................     2
Schrader, Hon. Kurt, a Representative in Congress from Oregon, 
  opening statement..............................................     3

                               Witnesses

Frey-Talley, Sarah M., President and Chief Executive Officer, 
  Frey Farms, Keenes, IL.........................................     4
    Prepared statement...........................................     6
Brim, William L., President and Owner, Lewis & Taylor Farms, 
  Inc., Tifton, GA...............................................     9
    Prepared statement...........................................    11
Bushue, Barry, Vice President, American Farm Bureau Federation; 
  President, Oregon Farm Bureau Federation, Boring, OR...........    14
    Prepared statement...........................................    15

                           Submitted Material

Barnard, Steve, President and Chief Executive Officer, Mission 
  Produce Company; Chairman of the Board, Western Growers 
  Association, submitted statement...............................    39


    HEARING TO REVIEW HORTICULTURE PRIORITIES FOR THE 2013 FARM BILL

                              ----------                              


                       WEDNESDAY, APRIL 24, 2013

                  House of Representatives,
Subcommittee on Horticulture, Research, Biotechnology, and 
                                       Foreign Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Austin 
Scott [Chairman of the Subcommittee] presiding.
    Members present: Representatives Scott, Denham, LaMalfa, 
Davis, Collins, Yoho, Schrader, DelBene, Costa, Kuster, and 
Vargas.
    Staff present: Debbie Smith, John Goldberg, Mary Nowak, 
Patricia Straughn, Pete Thomson, John Konya, Merrick Munday, 
Keith Jones, Liz Friedlander, and Caleb Crosswhite.

  OPENING STATEMENT OF HON. AUSTIN SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    The Chairman. Good morning. This hearing of the 
Subcommittee on Horticulture, Research, Biotechnology, and 
Foreign Agriculture, entitled Horticulture Priorities for the 
2013 Farm Bill, will come to order.
    The purpose of this hearing is to gather information from 
the specialty crop industry as our Committee begins assembling 
the 2013 Farm Bill. We want to ensure our work product reflects 
your highest priorities. We are pleased to have before us 
several witnesses who are involved in horticulture. A good deal 
of work has been done in previous Congresses, but as we all 
know, the process last year did not result in the enactment of 
a full 5 year farm bill. However, I believe a review of the 
Committee work from last year may be helpful as we begin 
today's discussion.
    Back in 2008, this Committee for the first time devoted a 
title exclusively to horticulture. Last year, the Committee 
proposed providing states with the flexibility to tailor 
projects to their particular concerns related through the 
Specialty Crop Block Grant Program. We also proposed 
enhancements to programs related to plant pest, and disease 
control. With early plant pest detection, threat identification 
and mitigation, and technical assistance in plant pest 
management systems, growers are given the necessary tools to 
combat current and future threats.
    The Committee also proposed allocating funds to assist 
specialty crop producers who face technical barriers related to 
trade. Among the issues faced by specialty crop producers are 
the numerous trade barriers put in place by other markets 
around the world. By providing technical assistance, the 
Committee sought to assure producers are continually provided 
avenues to grow in foreign markets.
    While many issues faced by the specialty crop industry were 
addressed, the industry continues to face many challenges. 
Pests and disease concerns are increasing, growers face 
continued food safety concerns, pressures with natural 
resources and regulatory burdens continue to grow. All of these 
concerns threaten the production of healthy food for Americans 
and people around the world.
    Before us today is a panel that represents almost every 
aspect of the specialty crop industry. We have a representative 
from the growing, packing, and shipping industry with 
operations in the Southeast and Midwest, a fruit and vegetable 
grower from my home State of Georgia, and the President of the 
Oregon Farm Bureau. I hope we can continue to remain receptive 
to the priorities of the industry and address any issues that 
may have arisen last summer. We appreciate the time each of you 
has given to prepare for this hearing. Your testimony will be 
of significant importance as we begin the process to 
reauthorize a new farm bill.
    [The prepared statement of Mr. Scott follows:]

 Prepared Statement of Hon. Austin Scott, a Representative in Congress 
                              from Georgia
    Good morning. The purpose of this hearing is to gather information 
from the specialty crop industry. As the Committee begins assembling 
the 2013 Farm Bill, we want to ensure our work product reflects your 
highest priorities. We are pleased to have before us several witnesses 
who are involved in horticulture.
    A good deal of work has been done in the previous Congress, but as 
we all know the process last year did not result in the enactment of a 
full 5 year farm bill. However, I believe a review of the Committee 
work from last year may be helpful as we begin today's discussion.
    Back in 2008, this Committee, for the first time, devoted a title 
exclusively to Horticulture. Last year, this Committee proposed 
providing states with flexibility to tailor projects to their 
particular concerns related through the Specialty Crop Block Grant 
program. We also proposed enhancements to programs related to plant 
pest and disease control. With early plant pest detection, threat 
identification and mitigation, and technical assistance in plant pest 
management systems, growers are given the necessary tools to combat 
current and future threats.
    The Committee also proposed allocating funds to assist specialty 
crop producers who face technical barriers related to trade. Among the 
issues faced by specialty crop producers are the numerous trade 
barriers put in place by other markets around the world. By providing 
technical assistance, the Committee sought to assure producers are 
continually provided avenues to grow in foreign markets.
    While many issues faced by the specialty crop industry were 
addressed, the industry continues to face challenges. Pest and disease 
concerns are increasing. Growers face continued food safety concerns. 
Pressures with natural resources and regulatory burdens continue to 
grow. All of these concerns threaten the production of healthy food for 
Americans and people around the world.
    Before us today is a panel that represents almost every aspect of 
the specialty crop industry. We have a representative from the fresh 
produce growing, packing and shipping industry with operations in the 
Southeast and Midwest, a fruit and vegetable grower from my home State 
of Georgia, and the President of the Oregon Farm Bureau who is also a 
horticultural producer. I hope we can continue to remain receptive to 
the priorities of the industry and address any issues that may have 
arisen since last summer. We appreciate the time each of you has given 
to prepare for this hearing. Your testimony will be of significant 
importance as we begin the process to reauthorize a new farm bill.
    I would like to recognize my colleague from Oregon, Ranking Member 
Schrader, for any opening remarks he may have.

    The Chairman. I would like to recognize my colleague from 
Oregon, the Ranking Member, Mr. Schrader, for any opening 
remarks he may have.

 OPENING STATEMENT OF HON. KURT SCHRADER, A REPRESENTATIVE IN 
                      CONGRESS FROM OREGON

    Mr. Schrader. Thank you, Mr. Chairman.
    I would like to thank you for holding this very important 
hearing today. It is a great opportunity for us to talk about 
specialty crops and the value they have for our great country.
    I want to express my gratitude to the witnesses for coming 
a long way and appearing before the Subcommittee to give us 
your homegrown insight that carries a lot of weight, believe it 
or not, here in Washington, D.C.
    I would like to acknowledge and thank Barry Bushue in 
particular. He traveled all the way from my home State of 
Oregon. We have had a long and great relationship.
    When it comes to discussing the farm bill, all too often 
the conversation tends to focus on just the commodity or the 
nutrition titles of the bill. That is despite the fact that 
specialty crops account for nearly \1/2\ of all domestic farm 
gate value nationwide. And, even with that, the specialty crop 
title is usually a very small fraction of the overall bill. In 
fact, it wasn't, as the chair pointed out, until 2008 that the 
farm bill included specialty crops as a separate title. That is 
why it is important to have this hearing today.
    Specialty crops are facing very different challenges than 
traditional program crops. These challenges range from pest and 
disease issues to labor shortages to competition from foreign 
producers. Specialty crop producers face these challenges 
without the traditional assistance like direct payments to 
support their industry. Programs like the Specialty Crop Block 
Grant Program which requires matching funds, and eligible 
projects that produce measurable outcomes. That is stuff that 
America can understand.
    The Specialty Crop Block Grant Program has funded projects 
in all 50 states for the benefit of the industry at the state 
level. These funds have been very successful in making our 
producers more productive, more competitive, and more 
profitable. Additional programs like the Specialty Crop 
Research Initiative, the Market Access Program, Pest and 
Disease Management Programs, the Fresh Fruit and Vegetable 
Snack Programs, the Farmers' Market Promotion Programs, are all 
examples of programs that are smart investments that benefit 
specialty crop producers nationwide and cost very, very little. 
Most importantly, I think a point to be made: these are not 
government handouts. These are cooperative programs that 
farmers and government alike work on.
    I am sure many people in the room will be surprised to know 
that my State of Oregon is a huge agricultural state. Nearly 
one in eight jobs rely on agriculture. We are not all 
Portlandia, folks. There are some of us that actually live in 
rural America. We grow over 250 different crops valued at over 
$5 billion a year and contribute over $22 billion in our 
state's economy annually.
    Here is an example of the diversity of Oregon agriculture: 
we are the number one producer of Christmas trees, hazelnuts, 
sugarbeets for seed, blackberries, boysenberries, rye grass 
seed, orchard grass seed, red clover seed, and fescue, just to 
name a few. And we are in the top five for nursery stock, 
pears, cranberries, wine grapes, blueberries, and many other 
crops. Please taste our pinot noir.
    Oregon is the very definition, I would like to think, of a 
specialty crop state. Our producers need a strong farm bill. I 
hope this Committee continues to build on the success of the 
2008 Farm Bill. I look forward to your testimony. And with 
that, I yield back, Mr. Chairman.
    The Chairman. Thank you, Mr. Schrader.
    The chair would request that any other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony and to be sure there is ample time for 
questions. And if we have time and the Members so request, we 
may do a second round of questions as well.
    I would like to welcome our panel to the table. Ms. Sarah 
Frey-Talley is President and CEO of Frey Farms from Illinois; 
Mr. Bill Brim, President and Owner of Lewis & Taylor Farms from 
my hometown of Tifton, Georgia; Mr. Barry Bushue, Vice 
President, American Farm Bureau Federation, President of the 
Oregon Farm Bureau Federation from Oregon.
    Ms. Frey-Talley, please begin when you are ready.

    STATEMENT OF SARAH M. FREY-TALLEY, PRESIDENT AND CHIEF 
           EXECUTIVE OFFICER, FREY FARMS, KEENES, IL

    Ms. Frey-Talley. Good morning. Chairman Scott, Ranking 
Member Schrader, and the Members of the Subcommittee, thank you 
so much for holding this hearing to focus on specialty crops in 
the upcoming reauthorization of the farm bill. I appreciate the 
opportunity to share my perspective on these issues.
    My name is Sarah Frey-Talley, and I am the President and 
CEO of Frey Farms. Frey Farms is a multi-state grower of fresh 
produce. We specialize in growing, packing, and shipping fresh 
market produce, including cantaloupes and watermelons, but we 
are best known as the nation's largest jack-o'-lantern pumpkin 
producer. Our farms and facilities are strategically located in 
Florida, Georgia, Missouri, Arkansas, Indiana, West Virginia, 
and Illinois.
    In addition to my role at Frey Farms, I am a member of the 
United Fresh Produce Association and serve on United Fresh's 
Government Relations Council. United Fresh is the only produce 
trade association that represents all segments of the fruit and 
vegetable production chain nationwide. United Fresh and its 
counterparts in the Specialty Crop Farm Bill Alliance, known as 
the SCFBA, a coalition of nearly 120 organizations in the 
specialty crop sector, worked to ensure the 2008 Farm Bill 
reflected the importance of specialty crops. With Congress' 
support, that legislation contained nearly $3 billion in 
specialty crop funding, which has been used to enhance the 
competitiveness of specialty crops. I am glad to provide 
comments on the issues facing specialty crop providers today 
and how Congress can build on 2008's momentum.
    In 2012 the SCFBA had examined the current state of 
specialty crop farm bill programs and provided Congress with a 
set of recommendations to support specialty crops. Key areas of 
focus by the Alliance included Specialty Crop Block Grants, 
specialty crop research, trade, nutrition, pest and plant 
disease mitigation. Unfortunately, as you know, in spite of the 
great deal of hard work by the Members of this Committee and 
the Agriculture Committee leadership, the 2012 Farm Bill was 
not reauthorized, and now, the work must begin all over again.
    I would like to elaborate on the following specialty crop 
farm bill priorities. Specialty Crop Block Grants: the 
specialty crop industry was pleased with the annual funding 
level of $70 million for Specialty Crop Block Grants in the 
House Agriculture Committee-passed version of the 2012 Farm 
Bill, and we urge you to maintain that level.
    In addition, there are a few policy changes that would 
increase the program's effectiveness. Examples of policy 
improvements would be encouraging states to further expand or 
prioritize grower level needs, as well as strengthening 
requirements for justifications for how a project enhances the 
competitiveness of specialty crops and include language to 
encourage multi-state projects. The Alliance believes these 
changes will further enhance the Block Grant Program.
    The work that has been done in SCRI will yield benefits for 
producers across the country by addressing issues such as 
improving production efficiency, improving crop 
characteristics, addressing pest and plant disease, response to 
food safety hazards, and innovation and technology. The 
specialty crop industry appreciated the $50 million allocated 
annually to SCRI by this Committee. Also, the SCFBA believes 
that making changes such as expanding research priorities for 
specialty crops would be helpful. We also believe that 
adjusting the process for reviewing grant applications to 
ensure that projects reflect industry priorities would also be 
beneficial.
    As the Members of this Subcommittee are aware, SCRI is one 
of the programs that had its funding authority expire due to 
the lack of full reauthorization of the farm bill, which could 
undermine the program's effectiveness. We urge you to address 
this issue by making the authority for this program permanent.
    The Fresh Fruit and Vegetable Program provides a fresh 
fruit and vegetable snack to nearly four million low-income 
schoolchildren across the country. As Members of the 
Subcommittee may be aware, FFVP was recently evaluated by 
outside experts and found to be highly effective at increasing 
students' fresh fruit and vegetable consumption. We support the 
funding of FFVP at $150 million per year.
    And now, I will talk briefly about trade. The House 
Agriculture Committee passed a version of the farm bill that 
included $200 million for the MAP program, which is Market 
Access Program, which the Alliance supported. The work that is 
done through MAP to develop and expand international markets 
has been very useful for the significant number of specialty 
crop interests that participate in the program.
    In addition, there are other challenges that are facing our 
industry, including food safety, and as many of you know, 
immigration. The stability of the specialty crop sector is 
seriously impacted by our ability to attract a stable, 
reliable, and skilled workforce. While produce providers have 
varying levels of success with procuring a stable workforce 
under the current Federal ag guest worker program known as the 
H-2A, far too many providers have found this program to be too 
slow, unresponsive, and cumbersome to work for their 
operations.
    And there has been an agreement recently reached between ag 
labor and ag employers on the framework for a new Federal ag 
worker program. This framework contains many of the elements 
first proposed by the AWC of which United Fresh is a founding 
partner. I urge Congress to act on immigration reform with an 
ag guest worker component included as soon as possible.
    We in the specialty crop industry are grateful to the 
commitment that Congress has made. We believe that the 
specialty crop farm bill programs will continue to show results 
but only if Congress passes a full reauthorization of the farm 
bill.
    Again, thank you for the opportunity to testify, and I will 
be happy to answer questions.
    [The prepared statement of Ms. Frey-Talley follows:]

    Prepared Statement of Sarah M. Frey-Talley, President and Chief 
               Executive Officer, Frey Farms, Keenes, IL
    Chairman Scott, Ranking Member Schrader, and Members of the 
Subcommittee on Horticulture, thank you for holding this hearing to 
focus on specialty crop needs in the upcoming reauthorization of the 
farm bill. Thank you also for the opportunity to share my perspective 
on these issues.
    My name is Sarah Frey-Talley and I am the President and CEO of Frey 
Farms. Frey Farms is a multi-state grower of fresh produce and is 
headquartered in rural Wayne County, IL. We specialize in growing, 
packing, and shipping fresh market produce including cantaloupes, 
watermelons, sweet corn and various other fresh market commodities. We 
are best known as the nation's top producer of fresh market pumpkins. 
Our farms and facilities are strategically located in Florida, Georgia, 
Missouri, Arkansas, Indiana, West Virginia, and Illinois.
    Frey Farms is a certified woman owned company. Since 1996 we have 
grown to meet the demands of our national retail partners by becoming 
geographically diverse in our operations and bringing the local farmer 
approach to the marketing of specialty crops on a national level. Our 
retail partners have recognized Frey Farms as an industry leader in 
food safety, sustainability, and as an ethical sourcing partner.
    In addition to my role at Frey Farms, I am a member of the United 
Fresh Produce Association and serve on United Fresh's Government 
Relations Council and Grower Shipper Board. United Fresh is the only 
produce trade association that represents all segments of the fresh 
fruit and vegetable production chain nationwide. United Fresh and it's 
counterparts in the Specialty Crop Farm Bill Alliance (SCFBA), a 
coalition of nearly 120 organizations in the specialty crop sector, 
undertook a concentrated effort during the 2008 Farm Bill deliberations 
to ensure that specialty crops received the dedicated funding and 
policy focus this sector deserves. With Congress's support, the 2008 
Farm Bill contained nearly $3 billion in specialty crop funding, which 
has been used to enhance the competitiveness of specialty crops. I am 
glad to provide comments on the issues facing specialty crop providers 
today and how Congress can build on the momentum of the 2008 Farm Bill.
    As deliberations began in 2012 on the reauthorization of the farm 
bill, the SCFBA provided Congress with a set of recommendations on how 
to maintain the progress from the 2008 Farm Bill. Key areas of focus 
included Block Grants, Specialty Crop Research, trade, nutrition and 
pest and plant disease mitigation. The Alliance's 2012 Farm Bill 
recommendations acknowledged the difficult budgetary environment that 
Congress must contend with and urged that funding for these and related 
programs be maintained. In the version of the farm bill that this 
Committee passed in July of 2012, much of the Alliance's 
recommendations were incorporated, allowing the important work of these 
programs to continue.
    Unfortunately, in spite of a great deal of hard work by the Members 
of this Committee and the Agriculture Committee leadership, the 2012 
Farm Bill Reauthorization was not passed and now the work must begin 
all over again. While the current farm bill has been extended, the lack 
of a formal reauthorization creates a great deal of confusion and 
uncertainties among producers who either rely on farm bill programs or 
who take farm bill programs into consideration as they make plans for 
their operations. United Fresh joined virtually every other sector of 
the agriculture in calling for the passage of the 2012 Farm Bill 
reauthorization. It was disappointing to see Congress fail to complete 
the tremendous amount of work that had already been done to get the 
2012 reauthorization to the President's desk for his signature. My 
comments will elaborate on some of our sector's farm bill priorities as 
well as other challenges facing the produce industry.
Specialty Crop Block Grants
    As I mentioned previously, the Specialty Crop Block Grant (SCBG) 
program is among the most prominent farm bill program focused on 
specialty crops and provides assistance to producers who are seeking to 
enhance their ability to be competitive, meet marketplace demands, as 
well as consumers' nutritional needs. In the years since the 2008 Farm 
Bill, hundreds of projects nationwide, many with areas of focus such as 
improving food safety or risk management; have been awarded funds from 
this program. The specialty crop industry was pleased with the funding 
level of $70 million annually for this program in the House Agriculture 
Committee-passed version of the 2012 Farm Bill and urges you to 
maintain that level. In addition, there are a few policy changes that 
would help the program's effectiveness. Examples of policy improvements 
include: Congress should encourage states to further expand or 
prioritize grower-level needs, and also ensure that notice of funds 
available (NOFA) are released in a timely manner. In addition, the 
SCFBA recommends that Congress take action to encourage states to 
require applicants to provide appropriate justification for how a 
project enhances the competitiveness of specialty crops and include 
language to encourage multi-state projects.
Specialty Crop Research Initiative (SCRI)
    Another top priority of the specialty crop industry is the 
Specialty Crop Research Initiative (SCRI). The work that is done in 
SCRI will yield benefits for producers across the country as projects 
address challenging issues such as improving production efficiency, 
improving crop characteristics, addressing pest and plant disease, 
response to food safety hazards and innovation and technology. The 
specialty crop industry appreciated the $50 million a year allocated to 
this program in the Committee-passed version of the 2012 Farm Bill. In 
addition, the Alliance believes that making changes to the program such 
as expanding research priorities for specialty crops for crop 
characteristics, pest and disease threats, as well as handling and 
processing would enhance the effectiveness and integrity of the program 
even more. Adjusting the process for reviewing grant applications to 
ensure that projects reflect industry priorities would also be 
beneficial. As you know, SCRI is one the programs that did not have 
mandatory authority or ``baseline'' so when the farm bill was not 
reauthorized, only extended, SCRI ran out of funding authority. I'm 
sure the Members of this Committee realize that research projects can 
take extended periods of time to yield results; they cannot be turned 
off and then restarted at some arbitrary time in the future. 
Furthermore, the work of the SCRI is work that providers do not have 
the resources to do themselves. That is why it is so important to keep 
this program and its work going and Congress should address the need 
for continuing authority for SCRI.
Nutrition
    In addition to these programs, we support specialty crop priorities 
in other areas such as nutrition, particularly, the Fresh Fruit and 
Vegetable Program (FFVP) which provides a fresh fruit and vegetable 
snack to four million low-income schoolchildren across the country. As 
the Members of the Subcommittee may be aware, FFVP was recently 
evaluated by outside experts and found to be highly effective at 
increasing students' fresh fruit and vegetable consumption. We support 
the funding of FFVP at $150 million per year. The specialty crop 
industry appreciates the Committee's support for this program which 
helps kids who might not otherwise have access to fresh fruit and 
vegetables get started with healthy eating habits.
Trade
    The Committee also supported or closely followed the Alliance's 
recommendations on other programs like the Market Access Program (MAP) 
which helps to support international marketing opportunities for U.S. 
entities. The House Agriculture Committee-passed version of the farm 
bill provided $200 million a year for MAP, which is what the Alliance 
supports. The work that is done through MAP to develop and expand 
international markets has been very useful for the significant number 
of specialty crop interests that participate in the program.
Plant Pest and Disease Management
    As the Members of the Subcommittee know, the hard work and thorough 
planning of a fruit and vegetable provider can be destroyed if his or 
her crop is attacked by a plant disease or pest. These threats can 
easily spread from state to state and region to region, so a broader 
approach to these evolving issues is needed. That is why the specialty 
crop industry was particularly pleased to see the full House 
Agriculture Committee allocate $71.5 million per year for pest and 
disease mitigation, which was an increase over the Senate-passed 
version of the 2012 Farm Bill and urge you to maintain that funding 
level.
Food Safety
    Certainly, reauthorization of the farm bill is a crucial policy 
development that the specialty crop industry strongly urges Congress to 
pursue and achieve as quickly as possible. However, the lack of a farm 
bill reauthorization is definitely not the only policy challenge facing 
our industry.
    The produce industry is currently addressing implementation of the 
Food Safety Modernization Act (FSMA). Two of the five rules for 
implementing FSMA have been issued; FDA is receiving comments and has 
just extended the comment period for another 120 days; which is a 
positive development.
    Produce providers realize that a food safety incident can truly 
destroy a business. Members of the produce industry have a heightened 
sense of awareness with regard to food safety and are committed to 
bringing the safest product possible to the consumer. Food Safety is a 
critical priority for those involved in the production and handling of 
fresh fruits and vegetables and requires a time and monetary 
commitment. Quality fruit and vegetable producers such as Frey Farms 
have made considerable investments in implementing food safety 
practices. Frey Farms employs a Director of Food Safety who manages the 
food safety system for all of our operations. In addition, we offer 
Food Safety consultation services to our contract growers. Frey Farms 
holds Global Food Safety Initiative Certification (GFSI) as the 
standard and has third-party audits conducted on all farm and packing 
facility operations annually. GFSI certification covers the supply 
chain from pre- to post-farm gate production in an integrated supply 
chain approach. In 2012 Frey Farms received superior ratings through 
GFSI third-party audits at all of our operations and is currently 
preparing for and expecting the same results for 2013 growing season. 
This level of commitment will be necessary for all produce growers 
packers and shippers as FSMA rules are implemented. I, along with the 
rest of our industry, have consistently supported strong mandatory, 
enforceable, commodity-specific food safety practices based on the best 
available science, applicable to both domestic and foreign produce. 
However, it is important to take the time necessary to allow for 
thoughtful comments and continued careful analysis of the proposed 
rules.
Immigration
    While the Agriculture Committee may not have formal jurisdiction 
over immigration policy, the stability of the specialty crop sector and 
the programs that I just described are seriously impacted by our 
ability to attract a stable, reliable, skilled workforce. As those of 
you on the Subcommittee know, fresh fruit and vegetable providers have 
tried repeatedly to attract and retain domestic workers for the very 
labor intensive jobs necessary to bring fresh produce to consumers. 
However, those efforts are rarely successful in finding domestic 
workers who can do the jobs well and will stay on the job. Our 
operations are seasonal and although regionally diverse they are 
primarily located in very rural areas of the country. Attracting the 
appropriate number of domestic workers for short work time-frames is 
impossible.
    Frey Farms has participated in the H-2A Guest worker program since 
2002. While produce providers like Frey Farms have had varying levels 
of success with procuring a stable workforce under the current Federal 
Ag guest worker program, known as H-2A, far too many providers have 
found this program to be too slow, unresponsive, expensive, and laden 
with bureaucratic inefficiencies. The produce industry's continued 
growth and the creation of domestic jobs such as facility managers, 
shipping and receiving clerks, and administration personnel is directly 
affected by our ability to obtain a sufficient number of harvest 
employees. At a time when over 47 million Americans rely on government 
support for nutrition it is incomprehensible that in several states 
growers have been forced to walk away from abundant fields and destroy 
millions of dollars worth of fresh fruits and vegetables simply because 
they could not gain access to an adequate harvest workforce. It is 
imperative for Congress to address overdue reform policies affecting 
the availability of Ag workers.
    There has been an agreement reached between Ag labor and Ag 
employers on a framework for a new Federal Ag worker program. This 
framework contains many of the elements first proposed by the 
Agriculture Workforce Coalition (AWC) of which United Fresh is a 
founding partner, along with many other agriculture stakeholders. Like 
any policy compromise, this one is definitely not perfect and will need 
further refinement. However, on a national basis, it is better than the 
status quo and moves us closer toward a reliable, effective program 
that provides employers in the Agriculture industry to a stable legal 
workforce and upholds worker rights. I urge Congress to act on 
immigration reform with a strong Ag guest worker component included as 
soon as possible.
    We in the specialty crop industry are grateful for the commitment 
Congress has made to our industry by supporting programs that promote 
specialty crops. Produce providers know that they have to be innovative 
and aggressive in pursuing opportunities and we know it is our 
responsibility to do everything we can to meet consumers' demands and 
needs. The programs directed toward specialty crops in the farm bill 
have shown results in helping providers help themselves in being 
competitive in the marketplace. We in the industry believe they will 
continue to show results, but only if Congress passes a full 
reauthorization of the farm bill and addresses the other critical 
challenges such as Immigration Reform.
    Again, thank you for the opportunity to testify and I am happy to 
take questions.

    The Chairman. Thank you, ma'am.
    Mr. Brim?

  STATEMENT OF WILLIAM L. BRIM, PRESIDENT AND OWNER, LEWIS & 
                 TAYLOR FARMS, INC., TIFTON, GA

    Mr. Brim. Good morning. Chairman Scott, Ranking Member 
Schrader, and other Members of the Subcommittee, thank you for 
the opportunity to testify today. My name is Bill Brim. I am 
co-owner of Lewis Taylor Farms in Tifton, Georgia. We operate a 
diversified specialty crop operation, farming about 5,000 acres 
of vegetables with 650,000 square feet of greenhouse operation 
and have been using the H-2A program for harvesting and packing 
since 1998.
    I am an active member of our industry's national trade 
association United Fresh Produce Association, and our state 
organization, the Georgia Fruit and Vegetable Growers 
Association. After several opportunities to pass a new farm 
bill over the past 18 months, the hard work of this Committee 
and our specialty crop industry seems to have been put on hold 
since last fall. I am hopeful that the House Agriculture 
Committee begins to make up the new farm bill next month, you 
will start where we left off back in last fall.
    In my opinion, when this Committee passed the farm bill 
back during the summer of 2012, I believe you were validating 
how well the 2008 Farm Bill was enhancing the competitiveness 
of produce in our industry.
    Well, my written testimony addresses a number of farm bill 
components. Due to the time limitations, there are three key 
elements I would like to mention that are very important to my 
farming operation. The sole purpose of the State Block Grants 
is to allow the states to identify the needs of the specialty 
crop industry and find ways through the Block Grants Program to 
increase the competitiveness of specialty crops. Over the life 
of the program, USDA reported that 2,500 projects have been 
funded. In Georgia, these funds have been very successfully 
utilized for education, promotion, research, food safety 
consulting, economic studies, pest management practices, and 
much more.
    In July 2012, Committee versions of the farm bill passed by 
this Committee, $70 million per year was approved for the Block 
Grant Program. We are encouraged that this Committee fights to 
maintain at least that level of funding in the 2013 Farm Bill.
    Research: the 2008 Farm Bill included key provisions 
creating a Specialty Crop Research Initiative, SCRI, which for 
the first time dedicated significant funding to addressing 
industry priorities and specialty crop research and extension. 
Unfortunately, SCRI did not have mandatory funding in the 2008 
Farm Bill, and the extension of the farm bill, the program was 
no longer funded. For our industry, successful research 
projects have the ability to reduce the future burden on the 
Federal Government through increasing production outputs, 
improved varieties, developing best management practices, and 
increasing product availability to consumers.
    Specialty crop producers grow over 50 percent of the food 
we eat as Americans, but specialty crop research funding is 
nowhere near 50 percent of the funding USDA spends on 
agriculture research. Federal investment in research and 
extension addressing those challenges has not kept pace with 
the dynamic growth and needs of the nation's specialty crop 
industry. These investments must be increased and sustained as 
mandatory funding in the new farm bill.
    Nutrition programs: the investment in Federal nutrition 
programs can increase consumption of healthy, nutritious, and 
specialty crops. Currently, the Fresh Fruit and Vegetable 
Program has proven to be highly successful by providing young 
students with the fresh fruit and vegetable snack pack every 
day at our schools and increasing that overall consumption of a 
wide variety of fresh fruits and vegetables. We support 
continued priority on fresh fruits and vegetable programs and 
incentives to help low-income families purchase and consume 
more fruits and vegetables.
    In closing, let me just say while I realize farm labor is 
not in the jurisdiction of this Committee, and the purpose of 
my testimony is to address the farm bill, if I don't pause to 
mention this most pressing problem, I will be doing you and 
myself a disservice. If Congress does not address our 
immigration and farm labor situation, we won't have to worry 
about the specialty crop title in the farm bill in the future. 
I encourage Members of this Committee to seriously consider 
comprehensive immigration reform for this country. While I have 
used the H-2A program for my labor needs for the past 14 years, 
the regulations, the red tape, delays, and bogus litigation has 
been horrendous. I hope you will give us a better guest worker 
program in the near future.
    In closing, Mr. Chairman, I ask the Committee to build on 
the foundation and investment in the specialty crop industry of 
the 2008 Farm Bill and ensure our most important issues are 
addressed as you move forward in the development of the 2013 
Farm Bill.
    Thank you very much, and I will be glad to answer any 
questions you have.
    [The prepared statement of Mr. Brim follows:]

  Prepared Statement of William L. Brim, President and Owner, Lewis & 
                     Taylor Farms, Inc., Tifton, GA
Introduction
    Chairman Scott, Ranking Member Schrader, and other Members of the 
Subcommittee, thank you for this opportunity to testify before your 
Committee. My name is Bill Brim and I am the co-owner of Lewis Taylor 
Farms in Tifton, Ga. We are a diversified specialty crop operation, 
farming 450 acres of bell pepper, 550 acres of cantaloupes, 2,000 acres 
of greens and broccoli, 500 acres of squash and 900 acres of cucumbers, 
50 acres of tomatoes, and 350 acres of vegetables crops. We also 
produce 185 million vegetable seedlings and 35 million pine tree 
seedling in our 650,000 square feet of greenhouse operations. We also 
grow 350 acres of cotton and 250 acres of peanuts. I have been using 
the H-2A program for our harvest and packing operations since 1998.
    I am active in our industry's national trade association to help 
bring safe, healthy, affordable and great-tasting fruits and vegetables 
to the public. In this capacity I serve as a member of United Fresh 
Produce Association's Government Relations Council and will be joining 
the United Consolidated Board of Directors in May. United Fresh 
represents more than 1,700 growers, packers, shippers, fresh-cut 
processors, distributors and marketers of fresh fruits and vegetables 
accounting for the vast majority of produce sold in the United States. 
I also serve on the Board of the Georgia Fruit and Vegetable Growers 
Association and served as President of the association in 1997-98 and 
2007-08. Our farm also strongly supports the efforts of the Specialty 
Crop Farm Bill Alliance and their 120 organizations that represent the 
majority of specialty crops in the United States including fruits, 
vegetables, tree-nuts, wine-grape growers, nursery and landscape 
companies. This important coalition represents over 350 individual 
specialty crops across the United States.
Overview
    After several opportunities to pass a new farm bill over the past 
18 months, the hard work of this Committee and our specialty crop 
industry seemed to have been put on hold. I am hopeful we can start 
where we left off back in the fall and move forward with a framework 
similar to that passed by this Committee in July of last year. For 
specialty crops, the Farm Bill of 2008 and the bill passed by your 
Committee last July provided a tremendous investment in our producers 
by recognizing the needs and priorities of fruits, vegetables, tree 
nuts, nursery and wine grape growers in the United States.
    From a produce grower's perspective, we continue to be driven and 
experience tremendous challenges in our business environment. We have 
worked hard to remain profitable, satisfy consumer demands, conform to 
and develop new technology, and compete in an increasingly global 
marketplace. Our markets are highly volatile, yet we have never relied 
on traditional farm programs to sustain our industry. Instead, we look 
to each other to promote efficiency and reward market competition that 
so marks our industry.
    In passing the farm bill recommendations by this Committee back in 
the summer of 2012, I believe you were validating how the 2008 Farm 
Bill enhanced the competitiveness of the produce industry. I trust this 
Committee will see the benefits our consumers and our farmers are 
receiving through your investments in the specialty crop industry. The 
following are key elements in the farm bill that I believe are critical 
to specialty crop farmers maintaining their competitiveness.
State-Block Grants
    One of the key aspects of the 2008 Farm Bill with respect to 
specialty crops was the Specialty Crop Block Grant program. As you 
know, the sole purpose of this program is to promote the 
competitiveness of specialty crops, such as fruits, vegetables, tree 
nuts, dried fruits, horticulture and nursery crops. Over the life of 
the program, USDA reports that 2,500 projects have been funded that 
benefit the specialty crop in all 50 states and the projects have 
enhanced all aspects of growing and marketing specialty crops including 
research, plant and pest health, food safety and production.
    For example, in my State of Georgia, block grant funds were used to 
promote Georgia specialty crops at a variety of trade shows across this 
country. At one of these trade shows, the growers participating 
reported collective new sales the following year at more than $2 
million. Funds were also used for research to provide pest management 
practices against fruit blotch on watermelons and economic studies of 
labor needs of Georgia specialty crop growers. In addition, funds were 
used for grower risk management and operations education plus food 
safety on-the-farm consultation.
    The block grant program was designed to address grower needs at the 
state level. In Georgia these funds have been very successfully 
utilized to help specialty crop producers improve their operations and 
be more competitive and profitable.
    In the July 2012 Committee version of the farm bill passed by this 
Committee, $70 million per year was approved for the Block Grant 
program. We encourage that this Subcommittee fight to maintain at least 
that level of funding in the 2013 Farm Bill.
Research
    Research serves as both a foundation and a catalyst for growth in 
the advancement of any industry. The importance of specialty crop 
research was first recognized by the Specialty Crop Competitiveness Act 
of 2004. Congress, in this legislation and additional legislation gave 
USDA direction: ``Research and extension grants may be made under this 
section for the purpose of improving the efficiency, productivity, and 
profitability of specialty crop production in the United States.''
    Subsequently, the 2008 Farm Bill included key provisions which for 
the first time dedicated significant funding to address industry 
priorities in specialty crop research and extension. The Specialty Crop 
Research Initiative (SCRI) was based on competitive processes, required 
stakeholder involvement, and had already had significant impact. 
Unfortunately SCRI did not have mandatory funding and with the 
`extension' of the 2008 Farm Bill the program is no longer funded.
    However, this Committee, in passing a new farm bill has an 
opportunity to offer a brighter future to specialty crop growers. For 
our industry, successful research projects have the ability to reduce 
the future burden on the Federal Government through greater public 
access to healthy products, enhanced exports to growing consumer 
economies around the world, pest and disease resistant crops, reduced 
resource consumption and a variety of other beneficial applications. In 
order to offer these benefits and reach these goals, U.S. specialty 
crops urgently requires an enhanced commitment to research and 
extension activities focused on their priorities. We produce over 50% 
of the food we eat as American's but specialty crop research funding is 
nowhere near 50% of the funding USDA spends on agricultural research.
    U.S. specialty crop producers and processors face mounting 
challenges to their economic vitality and long-term viability in a 
highly competitive global marketplace: These include high production 
input costs, extensive need for hand labor, new invasive pests and 
diseases, escalating regulatory demands, and unique domestic and 
international market requirements. Federal investment in research and 
extension addressing those challenges has not kept pace with the 
dynamic growth and needs of the nation's specialty crop industries. 
These investments must be increased and sustained in the new farm bill.
Nutrition Programs
    The role of investment in Federal nutrition programs cannot be 
overstated. This investment in nutrition programs can increase 
consumption of specialty crops such as fruits, vegetables, and tree 
nuts and benefit the specialty crop industry.
    Currently, the Fresh Fruit and Vegetable Program reaches more than 
four million low-income elementary school children nation-wide. This 
program has proven to be highly successful by providing young students 
with a fresh fruit or vegetable snack every day at school and increases 
their overall consumption of a wide variety of fresh fruits and 
vegetables. This program is a WIN-WIN-WIN for agriculture and the 
produce industry, our kids and public health.
    We support a strong continued focus in the farm bill on nutrition 
programs and increasing access and availability of fruits, vegetables 
and tree nuts. In particular, we support continued priority on the 
Fresh Fruit and Vegetable Program, Section 32 commodity purchases, the 
Department of Defense (DOD) Fresh program for schools, and incentives 
to help low-income families purchase and consume more fruits and 
vegetables.
Pest and Disease Programs
    The liberalization of international trade in agricultural 
commodities and commerce coupled with global travel has greatly 
increased the number of pathways for the movement and introduction of 
foreign, invasive agricultural pests and diseases. Economic damages 
from invasive pests and disease now exceeds $120 billion annually.
    The specialty crop industry continues to support expedited and 
aggressive actions by the Federal Government, in cooperation with the 
industry and stake holders at the state and local levels, to eradicate 
and protect the domestic market from the increasing threat of exotic 
pests and diseases entering the U.S. through international commercial 
shipments of products, as well as the importation of agricultural 
contraband by vacationing travelers and commercial smugglers.
    Section 10201 of the 2008 Farm Bill has provided critical funding 
and direction for innovative initiatives to identify and mitigate 
offshore threats, and improve pest detection and rapid response in the 
U.S., thereby also improving domestic growers' ability to export 
product to other countries.
    It is vital that the United States maintains its responsibility for 
the protection of the nation's food supply, our agricultural economy, 
and plant health. Therefore policies established under the 2008 Farm 
Bill provide the greatest opportunities for the reduction in risks, 
establish a consistent and clear communication structure, and provide 
for problem resolution with built-in accountability. We believe 
Congress should continue these important programs and build on their 
successes over the last 4 years.
International Market Access
    U.S. specialty crop growers face significant obstacles in the 
development of export markets for their commodities and unique 
challenges due to the perishable nature of our products. That is why we 
strongly support the continuation of two key programs that address 
sanitary and phytosanitary, as well as, marketing barriers to the 
export of U.S. specialty crops. Those programs are the Technical 
Assistance to Specialty Crops (TASC) and Marketing Access Promotion 
(MAP) programs, respectively.
Conservation
    Today, United States consumers have affordable access to the most 
abundant and diverse food supply in the world. However, for the 
specialty crop industry, there continues to be mounting pressures of 
decreased availability of crop protection tools that can be used to 
provide the abundant and safe food supply the consumer demands. In 
turn, environmental regulations continue to put pressure on the 
industry's ability to be competitive in a world economy. Because of 
these factors, Congress should consider assistance that encourages 
producers to invest in natural resource protection measures they might 
not have been able to afford without such assistance. Such programs 
would include EQIP, CSP, and WHIP.
Labor
    While I realize farm labor is not in the jurisdiction of this 
Committee, and the purpose of my testimony is to address the needs of 
the specialty crop industry as it relates to the farm bill, if I don't 
address my most pressing problem I will be doing you and me a 
disservice. If Congress does solve our immigration and farm labor 
situation you won't have to worry about a specialty crop title in the 
farm bill in the future. I encourage Members of this Committee and 
other Members of the House to seriously consider the comprehensive 
immigration reform that will be introduced very soon. While I have used 
the H-2A program for my labor needs for the past fourteen years, the 
regulations, red tape, delays and legal services law suits have been 
horrendous. I hope you will give us a better guest worker program in 
the near future.
Conclusion
    Mr. Chairman, I look forward to working with the Committee as you 
begin your consideration of the next farm bill. Many of the pressures 
that specialty crop producers and my farm face are similar to those of 
producers of other commodities--increased regulation, high energy 
costs, transportation costs and input costs. However, the perishability 
of our crops requires that we take a different strategy and move our 
products to market quickly. It is very important that these unique 
characteristics be addressed through agricultural policies that drive 
domestic consumption, and expand foreign market access while investing 
in research, food safety, conservation and pest exclusion policies that 
benefit the members of the specialty crops industry.
    I ask the Committee to build on the foundation and investment of 
the 2008 Farm Bill and ensure that our important issues are 
appropriately addressed as you move forward in the development of the 
2013 Farm Bill. We certainly recognize the fiscal constrains facing the 
Congress, however, the many challenges facing our industry will only 
worsen if real and adequate policy reforms are not provided through a 
farm bill that appropriately meets the needs of the broad U.S. 
agriculture community.
    Thank you.

    The Chairman. Thank you, Mr. Brim. Mr. Bushue?

STATEMENT OF BARRY BUSHUE, VICE PRESIDENT, AMERICAN FARM BUREAU 
 FEDERATION; PRESIDENT, OREGON FARM BUREAU FEDERATION, BORING, 
                               OR

    Mr. Bushue. Thank you, Chairman Scott, Ranking Member 
Schrader, and the Members of the Committee. Thank you for the 
opportunity to testify today on behalf of the American Farm 
Bureau and Oregon Farm Bureau.
    The Farm Bureau is the nation's largest general farm 
organization. Today, I will speak to the importance of the farm 
bill to specialty crop producers. Specialty crops accounted for 
approximately 17 percent of the $391 billion in U.S. 
agriculture cash receipts in 2012.
    I am a horticultural producer. I grow a variety of 
specialty crops, including pumpkins, flowering baskets, 
strawberries, and tomatoes for farm-direct, you-pick, and 
farmers' markets sales. In Oregon, we are fortunate to grow 
more than 240 recognized commodities. In 2011, Oregon ranked 
number one in the production of nine new commodities. We were 
ranked 2nd, 3rd, or 4th nationwide in ten additional 
commodities. Based on the value of production, 22 of the top 40 
commodities produced in the state are specialty crops. We are 
very proud of what we do and we do it extremely well.
    In Oregon, as in other specialty crop states, the industry 
appreciates Congress' recent focus on the importance of such 
commodities. It is our belief that a strong agricultural 
industry depends on a healthy variance of types of commodities 
grown, as well as production styles.
    The State Block Grants for specialty crops program is 
extremely important not only for the specialty crop producers, 
but also states that are high in specialty crop production. We 
would support expanding the program and the funding for 
research for specialty crops, as well as technical assistance 
for the United States Department of Agriculture. The Specialty 
Crop Block Grant Program provides funding to states to enhance 
the competitiveness of specialty crops. The 2008 Farm Bill 
provided the $55 million for each year until Fiscal Year 2012. 
We would like to see that program expanded in this new bill.
    Over the life of the program, USDA reports that 2,500 
projects have been funded that benefit the specialty crop 
industry in all 50 states. In Oregon, more than $6.5 million 
has been distributed for a multitude of programs. These program 
funds have been used for outreach and training on Good 
Agricultural Practices, GAP, programs aimed at improving food 
safety, traceability, and productivity. Several programs that 
bring more Oregon-produced fruits and vegetables to Oregon 
schools have been implemented as have trade, education, and 
marketing opportunities for the Asian market. Last, but 
certainly not least, pest and plant disease initiatives and 
direct retail opportunities for producers have been 
highlighted.
    As an industry, we recognize the budgetary constraints 
today and tomorrow and that the reauthorization of the current 
farm bill is going to be a far different bill than the 2008 
legislation. I would urge Congress to pay particular attention 
to crop insurance programs, particularly the Stacked Income 
Protection Plan, STAX. It is an insurance program that is 
designed to provide a fiscally responsible and effective safety 
net for program crop farmers and growers of tomatoes, potatoes, 
apples, grapes, and sweet corn. It is designed to complement 
existing crop insurance programs and does not change any 
features of the existing insurance policies. If we can use this 
program to cover these five specialty crops, fruit and 
vegetable producers in 44 states will benefit.
    Oregon serves as a perfect example of STAX protection for 
these five specialty crops. All five rank in the state's top 40 
production value: potatoes at $179 million, grapes at $80 
million, sweet corn at $32 million, apples at $20 million, and 
tomatoes at almost $12 million. As an organization, we would 
like to cover additional fruits and vegetables under the STAX 
program in the future.
    Another farm bill program quite popular with our members is 
the Farmers' Market Promotion Program. As you probably know, we 
have more than tripled the number of farmers' markets in this 
country in the last decade. The mission of the program is to 
improve and expand domestic farmers' markets, roadside stands, 
CSA programs, and agritourism. More than 160 farmers' markets 
showcase Oregon's bounty creating a unique connection between 
food producers and consumers.
    Farm-direct sales include farmers' markets, community-
supported agriculture farm stands, and other direct-to-consumer 
sales. Annually, it is estimated that farmers' markets 
contribute $50 million to Oregon's farm sales, not least to 
tell the story of a vital industry with strong support from the 
loyal public whose members continue to grow.
    Last, I like to mention the importance of agritourism. In 
Oregon, we have countless pumpkin patches, strawberry 
festivals, and wine country events. Obviously, the goal of 
agritourism is to bring the public to individual operations or 
a group of operations for entertainment and opportunity for 
sales. There is also another goal, maybe one that can't be 
measured, but certainly important, and that is to establish a 
lost connection for many with today's farms.
    We encourage the House Agriculture Committee to continue 
your investment in our specialty crop producers and their 
operations. We look forward to working with the Committee on 
the development of the next farm bill, hopefully sooner rather 
than later. Thank you.
    [The prepared statement of Mr. Bushue follows:]

   Prepared Statement of Barry Bushue, Vice President, American Farm 
Bureau Federation; President, Oregon Farm Bureau Federation, Boring, OR
    Chairman Scott and Ranking Member Schrader, thank you for the 
opportunity to testify on behalf of the American Farm Bureau Federation 
and Oregon Farm Bureau Federation. Farm Bureau is the nation's largest 
general farm organization and is the first (and, so far, only) 
agricultural organization to offer a comprehensive farm bill proposal 
in 2013. I will not cover details of that proposal today, but will 
instead hit a few highlights and then focus on our thoughts on the 
importance of the farm bill to fruit and vegetable producers. Specialty 
crops accounted for approximately 17 percent of the $391 billion in 
U.S. agriculture cash receipts in 2012.
    I am a horticultural producer. I grow a variety of specialty crops 
including pumpkins, flowering baskets, strawberries and tomatoes. In 
Oregon, we are fortunate to grow more than 240 commodities. In 2011, 
Oregon ranked number one in the production of blackberries, 
boysenberries, youngberries, hazelnuts, loganberries, raspberries, 
peppermint, Christmas trees and onions. We ranked second, third or 
fourth nationwide in snap peas, hops, garlic, pears, blueberries, sweet 
cherries, strawberries, green peas, cranberries and wine grapes. Based 
on value of production, 22 of the top 40 commodities produced in the 
state are specialty crops. We are proud of what we do and we do it 
extremely well.
    In Oregon, as in other specialty crop states, the industry 
appreciates Congress' recent focus on the importance of such 
commodities. It is our belief that a strong agriculture industry 
depends on a healthy variance on types of commodities grown as well as 
production styles.
    The Specialty Crop Block Grant Program helps to achieve that goal. 
In Oregon, more than $6.5 million has been distributed for a multitude 
of programs between FY 2009 and FY 2012. These program funds have been 
used for outreach and training on Good Agriculture Practices (GAP), 
programs aimed at improving food safety, traceability and productivity. 
Several programs that bring more Oregon-produced fruits and vegetables 
to Oregon schools have been implemented as have trade, education and 
marketing opportunities for the Asian market. Last, but certainly not 
least, pest and plant disease initiatives and direct retail 
opportunities for producers have been highlighted.
    A thriving agricultural economy benefits all Americans, and depends 
on a sound farm bill. The farm bill helps farmers and ranchers deal 
with the risks that threaten their ability to produce the food, fiber 
and fuel we all need. As the Agriculture Committees in Congress begin 
to draft a 2013 Farm Bill against a backdrop of decreasing government 
funding, Farm Bureau has put forward a farm bill proposal that is 
financially responsible, provides a measure of equity across crop 
sectors and helps farmers and ranchers deal with the weather and market 
risks they face.
    American Farm Bureau Federation policy supports strengthening crop 
insurance and offering farmers a choice of program options to complete 
their ``safety net.'' In addition, AFBF supports providing programs 
that encourage farmers to follow market signals rather than make 
planting decisions based on government payments. Farm Bureau also 
supports extending some of the programs generally ``reserved'' for farm 
program commodities to producers of fruits and vegetables.
    We developed a proposal recognizing the budgetary environment of 
today and tomorrow. Agriculture has been singled out by numerous 
Congressional leaders. Whether we like it or not, Congress is sending a 
clear message that the Federal dollars that were there in the past are 
simply not going to be there tomorrow. Farmers should not expect to 
receive the same level of support as they have--even as recently as 3 
or 4 years ago. Our proposal recognizes that fact and makes every 
effort to try to use the limited resources we have available in the 
best way possible.
    Farm Bureau is a general farm organization. Individual commodity 
groups are obviously able to push for their own crop's interest. Farm 
Bureau stretches across all of agriculture, and providing significantly 
higher benefits to one crop would mean that other crops would be forced 
to take a larger hit. We worked diligently to spend scarce dollars 
wisely and to treat farmers of various crops equitably.
    The top-level recommendations included in Farm Bureau's proposal 
are:

  b Support the lower Senate budget reduction number of $23 billion;

  b Structure the farm bill proposal to achieve this level of cost 
        reduction and, if funding is further reduced, to 
        proportionately reduce the safety net programs as necessary 
        (rather than require a total rewrite);

  b Allow program crop producers to choose either a Stacked Income 
        Protection Plan (STAX) or a target price program, on top of 
        participation in crop insurance and marketing loans, as the 
        three legs of a safety net;

  b Establish a STAX program for all program commodities, as well as 
        for apples, potatoes, tomatoes, grapes and sweet corn; and

  b Provide a target price program for all program commodities, with 
        the exception of cotton.

    The Stacked Income Protection Plan (STAX) is an insurance product 
designed to provide a fiscally responsible and effective safety net for 
program crop farmers and growers of tomatoes, potatoes, apples, grapes 
and sweet corn. The program would be administered by USDA's Risk 
Management Agency in a manner consistent with the current crop 
insurance delivery system. It is designed to complement existing crop 
insurance programs. It does not change any features of existing 
insurance policies. If we can use STAX to cover these five specialty 
crops, fruit and vegetable producers in 44 states will benefit. The 
five crops were selected based on the following criteria:

    a. Crop insurance is currently available for the crop;

    b. The crop ranks in the top 13 in value of production for the 
        country and represents at least two percent of the country's 
        value of production; and

    c. The crops are all grown in at least 13 states.

    We would like to cover additional fruits and vegetables under the 
STAX program in the future.
    The STAX plan addresses revenue losses on an area-wide basis, with 
a county being the designated area of coverage. In counties lacking 
sufficient data, larger geographical areas such as county groupings may 
be necessary to preserve the integrity of the program. The ``stacked'' 
feature of the program implies that the coverage would sit on top of 
the producer's individual crop insurance product.
    The 2008 Farm Bill was the first farm bill that included a title 
devoted exclusively to our sector.
    Specialty crops are defined as fruits and vegetables, tree nuts, 
dried fruits, horticulture and nursery crops, and floriculture. This 
level of productivity was accomplished on only about two percent of the 
country's crop acres.
    Our other farm bill priorities that specifically relate to fruit 
and vegetable production include:

  b Reauthorize and fund with mandatory money the four expired disaster 
        programs. This includes the (a) Livestock Indemnity Program 
        (LIP), (b) Livestock Forage Program (LFP), (c) Emergency 
        Assistance for Livestock, Honey Bees and Farm-Raised Fish 
        Program (ELAP), and (d) Tree Assistance Program (TAP). Due to 
        Colony Collapse Disorder (CCD), many beekeepers have suffered 
        significant losses in recent years. ELAP covers producers of 
        aquaculture, bees, and other species. ELAP provides funds for 
        losses that are not covered by other disaster programs, and 
        USDA reports it has paid out $31 million from program 
        inception. It has provided substantial assistance to beekeepers 
        whose bees have suffered from CCD;

  b TAP is equally important and provides assistance for tree death 
        losses. Nationwide, TAP has paid nearly $14 million from 
        program inception. TAP and ELAP often provide assistance to 
        producers who may not have access to Federal crop insurance, 
        and are critical in this era of widely varying weather events. 
        The four disaster programs expired on Sept. 30, 2011 and 
        permanent mandatory funding, as well as funding for 2011 and 
        2012 is critical;

  b Mandate additional studies on insuring specialty crop producers for 
        food safety and contamination-related losses;

  b Improve the Noninsured Assistance Program (NAP). Currently, 
        producers must suffer at least a 50 percent crop loss or be 
        prevented from planting more than 35 percent of intended 
        acreage to collect. For losses above those thresholds, a 
        producer receives 55 percent of the average market price for 
        the commodity. Allow additional coverage at 50 to 65 percent of 
        established yield and 100 percent of average market price. 
        Producers would pay a premium for such coverage;

  b Oppose additional payment limits and means testing on any crop 
        insurance programs. This is likely to hit specialty crop 
        producers especially hard since they are often producers of 
        high-value crops;

  b Oppose linking conservation compliance with crop insurance 
        programs. Fruit and vegetable producers have little to no 
        experience dealing with conservation compliance. Compliance 
        with wetlands issues can be especially problematic; and

  b Expand the State Block Grants for Specialty Crops program and 
        funding for research for specialty crops as well as technical 
        assistance at USDA. The Specialty Crop Block Grant Program 
        provides funding to states to enhance the competiveness of 
        specialty crops. Each of the fifty states are eligible to apply 
        for these grant funds from USDA and receives the higher value 
        of $100,000 or \1/3\ of one percent of the total amount of 
        funding made available for that fiscal year. The 2008 Farm Bill 
        provided the $55 million for each year until FY 2012. We would 
        like to see the program expanded in this bill. The sole purpose 
        of this program is to promote the competitiveness of specialty 
        crops. Over the life of the program, USDA reports that 2,500 
        projects have been funded that benefit the specialty crop in 
        all 50 states and the projects have enhanced all aspects of 
        growing and marketing specialty crops including research, plant 
        and pest health, food safety and production.

  b Another farm bill program quite popular with our members is the 
        Farmers' Market Promotion Program (FMPP). As you may know, we 
        have more than tripled the number of farmers markets in this 
        country in the last decade. The mission of the program is to 
        improve and expand domestic farmers' markets, roadside stands, 
        community-supported agriculture programs, agritourism 
        activities, and other direct producer-to-consumer market 
        opportunities.

  b For the specialty crop industry, there continues to be mounting 
        pressures of decreased availability of crop protection tools 
        that can be used to provide the abundant and safe food supply 
        the consumer demands. In turn, environmental regulations 
        continue to put pressure on the industry's ability to be 
        competitive in a world economy. Because of these factors, 
        Congress should consider assistance that encourages producers 
        to invest in natural resource protection measures they might 
        not have been able to afford without such assistance. These 
        programs would include the Environmental Quality Incentives 
        Program (EQIP) and the Conservation Stewardship Program (CSP).

  b We are also very supportive of Section 32 distributions. Funds are 
        used to encourage domestic consumption of non-price supported 
        perishable commodities and to re-establish farmers' purchasing 
        power through a variety of activities, including purchases of 
        commodities and removal of surplus commodities from the 
        marketplace for distribution to Federal nutrition assistance 
        programs such as the National School Lunch Program. When 
        specific commodities are hit hard, this program can immediately 
        relieve some of the pain. According to USDA, they have made 
        Section 32 specialty crop purchases of about $400 million per 
        year since the 2008 Farm Bill.

    We encourage the House Agriculture Committee to continue to invest 
in our specialty crop producers. This can be accomplished by mandating 
the availability of a STAX program for some specialty crop producers 
and watching for every opportunity to expand that program over the next 
few years, providing additional specialty crop block grant funding, 
improving our Farmers Market Nutrition Program and expanding the Fresh 
Fruit and Vegetable Snack Program. We look forward to working with the 
Committee on the development of the next farm bill.
    We recognize the fiscal constraints facing Congress and the 
Committee, but the many challenges facing our industry will only worsen 
if real and adequate policy reforms are not provided through a farm 
bill that appropriately meets the needs of agriculture.

    The Chairman. Thank you, Mr. Bushue.
    The chair would like to remind Members that they will be 
recognized for questioning in order of seniority for Members 
who were here at the start of the hearing. After that, Members 
will be recognized in order of arrival. We certainly appreciate 
your understanding.
    This first question I have is for the panel. As many of you 
are aware, the last several years there have been advancements 
in food safety, pest management, and pesticide use through the 
Specialty Crop Research Initiative. Have any of you worked with 
your respectively land-grant universities in regard to the 
specialty crop research, and how would you rate the 
effectiveness of these research programs?
    Mr. Brim. Yes, Congressman. I have worked with the 
University of Georgia. We probably have as many protocol test 
plots on my farm from herbicides to insecticides to all 
different type of research on disease, all different type of 
diseases. We probably have as many experimental plots on my 
farm as the experiment station does in Tipton, so we work 
really close with them. We think this is one of the most 
important issues for our colleges to sustain the research that 
we need to help further our ability to make a prosperous crop.
    The Chairman. Would anybody else like to comment on that?
    Ms. Frey-Talley. Our company, Frey Farms, we enjoy the 
benefits of that research through Purdue and also the 
University of Illinois in the work that they do there with pest 
and plant disease mitigation on fresh market pumpkins.
    The Chairman. Thank you, ma'am.
    Mr. Bushue. Many of our members work directly with our 
research extension service in Aurora, Oregon, which specializes 
in specialty crops and horticulture, and we have a very active 
engagement with our land-grant through that process, and many 
of our growers have plots on their own farms nearby. It has 
been very successful and very important to Oregon's 
agriculture.
    The Chairman. Thank you. Mr. Brim, it is my understanding 
that Fresh Fruit and Vegetable Program has worked well in 
Georgia since 2008. Under the Committee's farm bill last year, 
the program expanded to all forms of fruits and vegetables. Can 
you just give us a brief explanation of the impacts that that 
change has from the standpoint of the policy that would be 
carried out?
    Mr. Brim. Yes, sir. As you mentioned, the Fresh Fruit and 
Vegetable Program has been very effective in the State of 
Georgia. This has definitely increased the kids' fruits and 
vegetable consumption, introducing them to a wide variety of 
fresh fruits and vegetables that they can eat at school, as 
well as at home. Once they develop those tastes, they will go 
home and start having fruits and vegetables at home as well.
    As a grower, this program has been very important to me 
because of the many fresh fruits and vegetables that schools 
typically serve in the programs, as we all know, they are 
through the canned fruits and vegetables and frozen. They are 
spending about $400 million on the actual buying of the cans, 
fruits, and fresh/frozen, and $150 million just for the fresh 
fruit, which is about three percent of the budget of the 
Agriculture Committee in the farm bill.
    So we grow cantaloupes, green peppers, and broccoli, 
cucumbers, tomatoes are now available in all of these Georgia 
schools.
    To your question, the impact of last year's policy decision 
was significantly undermined in the integrity of the program 
for broadly expanding the program to fruit and vegetables that 
already received considerable access to schools through the 
Section 32 Program. As you are aware, Specialty Crop Farm Bill 
Alliance, which includes the Georgia Fruit and Vegetable 
Growers Association, sent a letter in December to the 
leadership of the House and Senate Agriculture Committees 
urging that the farm bill to insert the original language on 
the program from the 2002 Farm Bill regarding commodity 
eligibility for the FFVP. I strongly support these efforts and 
urge the Committee to move forward in this way.
    The Chairman. Thank you. I now recognize the Ranking 
Member, Mr. Schrader, for 5 minutes.
    Mr. Schrader. Thank you, Mr. Chairman. I appreciate it.
    Ms. Frey-Talley, you talked about the Market Access Program 
and, as you know, the exports seem to be of increasing 
importance. Could you talk a little bit about the importance of 
helping small farming cooperatives, small farming families 
reach worldwide with their products through the Market Access 
Program?
    Ms. Frey-Talley. Well, obviously, that is what MAP was 
originally intended to do. Our company does not participate in 
that program, but I know that through that program, several 
citrus growers have benefited greatly by being able to export 
their products. And I know in the State of Florida, that has 
been very beneficial to numerous growers. And it has also been, 
as you suggested, very advantageous for smaller farming 
operations and allowing them to be able to make their products 
available on a global level.
    Mr. Schrader. Yes, a lot of farming operations are not all 
big agribusinesses, particularly in specialty crop areas. It is 
really important for us to be able to get our produce out 
there, and this is one program that works.
    Mr. Brim, could you talk a little bit about making SCRI 
mandatory, how important that is in the farm bill?
    Mr. Brim. Well, yes, sir. It is very important to us and of 
course to our universities where we have applied research. And 
like I talked about a while ago on our farms, it is very 
important for us to have this funding available to them for us 
to be able to have the specialty crops that we need in our 
particular areas to be able to use this funding and through 
SCRI.
    Mr. Schrader. And Mr. Bushue, could you elaborate a little 
bit about the STAX program and the problem with a lot of the 
insurance programs. We don't get direct payments, and a lot of 
the insurance programs don't really fit our needs because many 
farms have multiple crops on them at any one time. Can you talk 
a little bit about the need? I know there are some amendments 
out there to modify NAP a little bit that would help, but could 
you talk about the STAX program just a little bit more?
    Mr. Bushue. Yes, it is designed to basically complement the 
current insurance programs for those crops. We chose those five 
hoping to expand those of course in the future. We chose those 
five because of the diversity of them, the breadth and depth 
that they cover across the United States. Also, they are grown 
in at least 13 states and they rank in, I believe, the top two 
percent of production for those particular crops. We just think 
it would be an ideal opportunity as a starting place if you 
will to maybe make a pilot-type program to offset some of the 
loss and some of the tragedies that happened on farms, 
especially in specialty crop industry where a loss can be 
significant.
    If I could take the liberty and comment on your 
agribusiness, a large farm is generally something that is an 
acre bigger than yours.
    Mr. Schrader. Well said. A follow up, if I may, on 
immigration. Every one of you has indicated some interest in 
the immigration bill. I know the Chairman and I are very 
interested in making sure that whatever bill comes out works 
for our agricultural producers and our agricultural workers. 
Each way has been problematic, as you testified to. Perhaps, 
starting with Mr. Bushue, give us a quick comment, give us your 
opinion, on how the Gang of 8 immigration draft seems to shape 
up for American agriculture?
    Mr. Bushue. The Farm Bureau certainly shares the interest 
of the other two panelists today with the need for dramatic and 
comprehensive reform on immigration. It is critical to the 
agricultural industry. The Farm Bureau has been working very 
closely with the folks on the Hill both in the Senate and in 
the House hoping for some kind of solution soon, and we would 
encourage Members of this Committee to work with anybody that 
they can to make that happen as soon as it possibly can. Thank 
you.
    Mr. Schrader. Mr. Brim?
    Mr. Brim. I think that agriculture is more unified right 
now in the need to have something done about immigration from 
the Southeast to Oregon to New York State. I mean it is vital 
that we get something done about immigration. We have gone 
through so many years. I have been in the H-2A program for 14 
years and it is just vital to us now for us to even be able to 
grow in our businesses, to develop our businesses and know 
where this new program is going to go. I think that we have an 
opportunity now to finally get something done, and we don't 
need to stop with it now. We need to go ahead and proceed and 
have something pass to help us with our immigration.
    And the Gang of 8 bill is a good bill. There are some good 
things in it; there are some bad things in it. I think there 
are a lot of things that we can rework, but overall, we are all 
united and we just need something done.
    Mr. Schrader. Ms. Frey-Talley, real quick?
    Ms. Frey-Talley. Yes. I think this is a critical point in 
our industry and the work that the AWC has done bringing all 
the different sections and groups in agriculture together to 
reach an agreement for the framework for ag business and labor 
to come together I think it is just a really incredible and 
pivotal moment, and I would encourage Members of Congress to 
understand the need that we have and how crucial it is. 
Especially at a time when over 47 million Americans receive 
some type of government nutritional support, growers are forced 
to walk away in certain instances and in states from abundant 
fields simply because they can't get access to an adequate 
harvest labor force. So, they end up just giving up millions of 
dollars worth of fruits and vegetables.
    Mr. Schrader. Thank you very much.
    The Chairman. Thank you.
    Mr. Schrader. I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you, Ms. Frey-Talley. And ladies and 
gentlemen, I now recognize to Mr. Denham.
    Mr. Denham. Thank you. In California in the Salinas Valley 
and Central Valley we have been hit with a huge amount of food 
safety concerns over the last decade or so. I am sure that you 
are all concerned about the pending implementation of the Food 
Safety Modernization Act, which looks like it will treat 
strawberries the same as walnuts or citrus. And recently, a 
district court in California announced that it had found that 
FDA had unreasonably delayed implementation of food safety 
regulation and has ordered the FDA to agree to an 
implementation timetable with an activist group by May 20. Do 
you believe that it would be appropriate considering the 
complexity of the issue involving the FDA to rush through these 
regulations? If you could each talk about food safety, Mr. 
Bushue?
    Mr. Bushue. Any time you have a broad-based regulation that 
deals with food safety, you are going to come across some 
problems, and you have already allocated to some of them. I 
don't think we ought to rush into any program, and the Food 
Safety Modernization Act, like most bills, is not perfect, but 
I think there needs to be time spent doing it correctly so that 
we don't have the problems with strawberries that we do have 
with treating them the same as tree fruit.
    Mr. Denham. Mr. Brim?
    Mr. Brim. Yes, I think food safety issue is very important. 
I think FDA's position right now is too quick. We can't 
implement this FDA rule by the 6th. I think a term for 
terminating and re-looking at the whole bill would be advised. 
We as farmers, we try our best and do everything we possibly 
can food safety-wise already, so let's get it right when we do 
it. Let's don't hurry into anything. And we certainly, as 
farmers, don't want to hurt anybody, don't want anybody sick. 
So we do everything we possibly can right now with food safety. 
So, as I say, let's get it right before we terminate.
    Mr. Denham. Thank you. Ms. Frey-Talley?
    Ms. Frey-Talley. Well, I, along with the rest of our 
industry, have consistently supported strong, mandatory, 
enforceable commodity-specific food safety practices based on 
the best available science applicable to both domestic and 
foreign produce. Having said that, I believe that it is very 
important to take the time necessary to allow for thoughtful 
comments on the proposed rules and allow the continued careful 
analysis of those rules.
    Mr. Denham. Thank you. And on the chemical side of things, 
pesticides, herbicides, what are the challenges facing each of 
you regarding access to fumigants for crops now that methyl 
bromide has been phased out and now that sulfuryl fluoride is 
being proposed as well? What are the other options? What are 
your concerns? What do you think could be next?
    Mr. Bushue. Certainly access to crop protection products, 
including the fumigants you have mentioned, are critical to 
specialty crop producers. Over the years, we have seen a 
decline in the number of products available to small crops 
because of the cost of implementation through FIFRA and the 
EPA. We recognize that those products are critical to our 
production needs. The lack of any kind of a usable, safe 
fumigant creates a lot of problems for rotational issues and 
especially the kind of crops that we raise on a fairly intense 
basis. So we would encourage anything this Committee could do 
to work through EPA to make those things happen on a much 
quicker level.
    Mr. Denham. Thank you. Mr. Brim?
    Mr. Brim. I think there is an opportunity right now for you 
and our Congress to do something about the handling of the way 
EPA has handled their chemistries that they are trying to get 
into process. We need to be able to have new chemistries coming 
out on a regular basis because we have restrictions on 
resistance management. Where you are managing your chemicals in 
your products is a great tool. Some people don't manage their 
chemicals and their products like they should so we get 
resistances to these chemicals and they are not doing us any 
good. So we need some help to alleviate and be able to return 
some of these chemistries that will be available to us that we 
can use.
    Mr. Denham. Thank you. And Ms. Frey-Talley, my time is 
getting short, but let me just ask one other quick question. On 
crop insurance we face some unique challenges in California 
primarily because we are a specialty crop state. You know, crop 
insurance doesn't seem to provide a good risk management tool 
for specialty crops. Can you comment on that?
    Ms. Frey-Talley. Yes. There is no crop insurance available 
to our company for the commodities that we grow. They are 
really outside disaster policies for hail and such. So our 
company, we participate in the NAP program. And as I am sure 
all of you are aware, that program, I would say that in the 
event of a complete crop loss, it is a beneficial program to 
participate in, but it is not as effective as some type of 
private insurance obviously would be for the fruits and 
vegetables that we grow.
    Mr. Denham. Thank you, ma'am.
    The Chairman. I now recognize the gentlelady from New 
Hampshire, Ms. Kuster.
    Ms. Kuster. Thank you very much, Mr. Chairman. And thank 
you for hosting this hearing. Thank you all for coming.
    I had an ag roundtable in my district in western New 
Hampshire on Monday and we had a great deal of this type of 
discussion. It was very informative for a new Member coming 
right before markup.
    I want to continue, Ms. Frey-Talley, with the conversation 
you were just having on insurance. What would you recommend for 
insurance products that would be useful to the specialty crop 
industry? We have a lot of orchards, berries, local fruits and 
vegetables for farmers' markets and school programs. I am 
curious how you would structure insurance products if you could 
rewrite them.
    Ms. Frey-Talley. Well, I think that it would certainly be 
commodity-specific. I don't think it would be like a one-size-
fits-all. But with the help of United, I would be happy to get 
back with you on our suggestions on what the framework would 
look like for overhauling that.
    Ms. Kuster. Do the other witnesses have any recommendations 
on specialty crop insurance?
    Mr. Brim. Yes, ma'am. On CAT coverage and NAP coverage for 
me it is just ineffective. I would say something on a risk-
based arrangement where you could at least recover your cost, 
not a profit but just a cost effect so we at least wouldn't 
lose our farms because of a catastrophe. And a risk-based I 
think would work fine for that.
    Ms. Kuster. Mr. Bushue?
    Mr. Bushue. I would agree with Mr. Brim. Certainly, most of 
the current insurance products do not work for me on my farm 
and a risk-management base would be much better, similar to the 
STAX program that I talked about earlier. We think that would 
be absolutely effective, but it does need to be crop-specific.
    Ms. Kuster. Thank you. I will now turn to other programs 
mentioned, briefly, by each of you, such as school lunches and 
farmers' markets. Could you comment on how we can encourage 
that growth in specialty crops and open up those markets 
further? Are there specific elements? I know, for example, the 
farmers talked about the EBT cards at the farmers' markets. Are 
there other types of programs that would be helpful to expand 
your markets? And Mr. Brim, if you would like to start.
    Mr. Brim. I think there is a great opportunity out there to 
expand the school lunch programs and the Fresh Fruit and 
Vegetable Snack Program to all the schools and not just have it 
just at a morning session but in an afternoon session before 
they go home. Just adding funding and being available funding 
for this new program would be a benefit to all of us.
    Ms. Kuster. And healthier for the kids as well.
    Mr. Brim. That is right.
    Ms. Kuster. Absolutely.
    Mr. Brim. And take away some of obesity maybe.
    Ms. Kuster. Well, we hope. Thank you. And definitely can 
make a big difference.
    Mr. Brim. That is right.
    Ms. Kuster. Finally, the comments about immigration. What 
would you recommend to change for the immigration program? You 
have talked about making sure you have a reliable workforce. 
Are there specific elements we should be looking for as the 
immigration bill comes forward? And, Ms. Frey-Talley, if you 
would like to start.
    Ms. Frey-Talley. I think a very strong ag guest worker 
program is critical to any type of comprehensive immigration 
reform bill. And like I had mentioned, the AWC has outlined and 
reached an agreement for those best practices. And in the 
current bill that the Senate has, we support that framework and 
we think that that is a workable solution for ag.
    Ms. Kuster. Okay. And the other two witnesses, do you 
agree?
    Mr. Brim. Yes, ma'am. I would think, though, that the Gang 
of 8 that put the labor bill together, their proposals are 
good. There is still some tweaking the needs to be done but 
moving the program to a 3 year visa was a good thing, taking 
away the 50 percent rule. In my district, I get calls all the 
time because I am so active from farmers, and they think that 
they haven't been able to effectively get the wage rate right, 
and that is another problem.
    Ms. Kuster. Okay.
    Mr. Brim. But overall, I think the cap on the visas at 
112,000 we feel like it is too low for the 1st year and 
especially for the third year. Once these blue card holders 
leave agriculture and we have to go back to the H-2A program or 
some kind of contractual program. And the other thing in 
mediation that is a nonbinding agreement with legal services, I 
mean if we are going to have a mediation, then it should be 
binding.
    Ms. Kuster. Right.
    Mr. Brim. Why should we have to go after we have mediated 
and they have agreed to a mediation, and then they will take us 
to court and we have to spend another $\1/2\ million on 
something that we didn't do wrong? And it is just horrendous I 
think.
    The Chairman. The gentlelady's time has expired.
    Ms. Kuster. Thank you so much.
    The Chairman. I am now going to recognize the gentleman 
from New York for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. I want to thank the 
witnesses. It is interesting in New York sometimes we don't 
think about agriculture. I have the western part of New York, 
which is one of the most agricultural districts. New York has 
recently become the number one yogurt producer in the United 
States, so clearly dairy is a very big part of what I have. But 
also specialty crops, sometimes people don't realize because of 
our unique climate and where we are surrounded by the Great 
Lakes, when it comes to apples, peaches, grapes, cabbage, 
potatoes, we are some of the largest producers.
    So what I would just simply state is my farmers concur with 
everything you have said and certainly, Ms. Frey-Talley, the 
specialty farmers agree. When I put together my agricultural 
roundtable, I said what is it we should be doing here on the 
Agriculture Committee? And they said number one, we just need a 
farm bill. We need to know what we are going to be facing the 
next 5 years. We can't continue to go with uncertainty. So they 
asked, number one, pass the bill so we know what the rules are. 
Number two, obviously, immigration reform. You have to milk 
cows 24 hours a day, sometimes twice a day, sometimes three 
times a day so a guest worker program, as we have now in dairy, 
doesn't work, but then the specialty crop farmers reminded me 
from the processing plant standpoint again it is 12 months a 
year; it is not 10 months a year. So you have confirmed much of 
the same thing that we have been hearing.
    The other thing they mentioned again was on the specialty 
crop research. We do have a land-grant university, Cornell, 
very well known, and when it comes to peaches and apples and 
some of the issues, what my farmers have said is on their own 
they can't afford it but the research that they get and the 
benefit from Cornell not only benefits them but others.
    So I guess, a lot of the questions I had have been 
answered, but the other thing I am hearing is trade barriers, 
about grapes turned into wine. We have a lot of vineyards under 
Lake Ontario and they can't export their wine certainly into 
Canada because there are trade barriers in getting into Canada 
where we have our markets open and they don't, and I have 
talked to the Canadian trade officials about that. But I am 
curious more on the export side as a question, Ms. Frey-Talley 
and others. Do you export? Do you see barriers? I mean the 
biggest one I hear about on the wines is Canada, but on the 
export part, if we are going to grow our economy.
    And also I would like your comments on whether the lack of 
a farm bill may be stifling the growth of your farm or 
investment as you are waiting to see what the new rules are 
going to be?
    Ms. Frey-Talley. We do not currently export any of the 
products that we grow, pack, or ship. Maybe Mr. Brim could 
elaborate.
    Mr. Brim. We do export some of our vegetables to the 
Caribbean islands but not a whole lot. With the Canadians we 
export to Canada, I guess that is a different country as well, 
so we do do that one, too. But we find that it is difficult, 
and once our product gets across the line, then we are 
defenseless in what they do with that product. And so we have 
problems with rejections that are really bad because of not 
being able to bring them back into the United States after they 
go into Mexico or into Canada. So it has created a problem and 
it ties our hands a little bit on what we can do with our 
product as well.
    Mr. Bushue. I don't export directly but certainly Oregon is 
a huge exporter of specialty crops and other crops, and 
American Farm Bureau is actively engaged in the trade markets. 
We recognize that for the agricultural economy, we are going to 
have to open up more and more markets, and we look forward to 
the passage of more and more multilateral, bilateral trade 
agreements like TPP, et cetera, and we would support that. 
Thank you.
    Mr. Collins. Mr. Bushue, would you say also that the lack 
of a farm bill like this past Congress has held back expansion 
or growth? Have you heard those kind of comments from your 
members?
    Mr. Bushue. I think it is the concept of not knowing where 
we are going as critical right now. And certainly, whether or 
not I could point to individual examples on my farm, how it has 
impacted me, that becomes more of a challenge. But to the 
industry as a whole, without that future security knowing where 
we are going, obviously, it is going to impact negatively our 
economy and our ability to trade certainly.
    Mr. Collins. Yes. Thank you very much, Mr. Chairman. I 
yield back.
    The Chairman. Thank you. I now recognize the gentleman from 
California for 5 minutes.
    Mr. Vargas. Mr. Chairman, thank you very much. And thank 
you very much for holding this hearing. I also want to thank 
the panel.
    I represent San Diego County, California, and also Imperial 
County. Of course, Imperial County you may be familiar with. 
There are lots of specialty crops there. It is a fantastic 
growing area. I am in contact with a lot of the farmers there. 
I asked them if there was one thing you could fix, what would 
it be? They all said immigration. Immigration. They also said 
the insurance policies don't work for them either, but 
immigration is the biggest issue. And I appreciate all of your 
testimony here today about it.
    I want to ask you a little bit more about comprehensive 
immigration reform. I think on the Democratic side, we are 
ready to go. We want to do something. I come from a little 
different perspective, from a religious perspective on the 
issue. Certainly, it is very clearly in the Torah and 
throughout the Old Testament and the New Testament, so I am 
coming at it from a little different perspective, than from 
pure commerce.
     I hear now that there is this notion of radicalized 
immigrants. Have you seen any of those guys out there on your 
farms?
    Mr. Brim. No, sir, I have not. We do have some problems on 
our farms----
    Mr. Vargas. Yes.
    Mr. Brim.--but it is not from terrorism, I assure you.
    Mr. Vargas. Okay. So it is not from immigrants--terrorizing 
anything?
    Mr. Brim. No, sir.
    Mr. Vargas. Okay. Can you comment a little bit more about 
the immigration? You have commented about the guest worker 
program. One of the things that growers mentioned a lot of time 
is that there are a number of employees that are long-time 
employees. These are people that have been employed for a long 
time, not guest workers, who they suspect might have an issue 
with immigration.
    Mr. Brim. Well, we have been doing the H-2A program since 
1998, and we have the same people coming back each year, year 
after year. And like the Congressman a while ago said from New 
York, we are a 12 month business. We can't do it 10 months and 
stop. And all of our employees, they keep coming back so they 
are well-trained employees. We don't have to re-recruit and 
retrain each year. So that is very different, but we think that 
the H-2A program is very cumbersome----
    Mr. Vargas. Yes.
    Mr. Brim.--and it is litigious but because we have the 
people coming back each year, and so that allows us to have a 
trained workforce because our domestic people in the United 
States will not do it.
    Mr. Vargas. Perhaps, California maybe is a little bit 
different. In the Central Valley, there are a lot of people 
that work in the fields that are undocumented, and they are not 
seasonal. They live there. Supposedly, those would be some of 
the people that would be able to gain legal status in this 
country. Is that the case anywhere else? I know in California 
it is for a fact.
    Mr. Brim. We have illegals in Georgia as well. I mean 
probably there are about 18 growers in the State of Georgia 
that do H-2A program, so the balance of the program is based 
off of illegal workers or domestic workers as well. But trying 
to find domestic workers, we don't have any other 
opportunities. Domestic workers will not work on our farms. 
Because I am mandated to hire, I hired 1,650 domestic workers 
in January through July. The end of July, do you know how many 
I had? None.
    Mr. Vargas. I am not surprised. It happens in California 
all the time. I worked on workers' comp there for 2 years as a 
Chairman of the Insurance Committee. He asks me one day, ``Do 
you know how many people on my farm are illegal?'' And I said, 
``How many?'' He said all of them except for the general 
manager because I can't get anybody else to work. It is hard 
work. I am not surprised. Maybe I should be but I am not.
    I am hoping that through this legislative process you will 
become active working with the wonderful gentlemen on the other 
side of the aisle. They may need convincing that this is 
something we ought to do. I think there is a great need.
    Mr. Brim. There is definitely a need for the four of us to 
have a new immigration policy. When Georgia passed their H.B. 
87 Bill, which destroyed our illegal portion that cost us as an 
ag community about $140 million.
    Mr. Vargas. Yes.
    Mr. Brim. So we definitely need some new regulations to be 
able to----
    Mr. Vargas. Well, God bless you. And I thank you.
    The Chairman. The chair would remind people we recognize 
immigration is an extremely critical issue, and I know most of 
the Members here have asked the question that revolves around 
immigration, and you alluded to it in your opening statements 
as well. That is the jurisdiction of the Judiciary Committee, 
and so we are here to review horticultural priorities. We 
recognize that it is a key issue, but we want to focus on what 
we can do for horticulture actually in the farm bill. And 
again, I know most of the Members have asked a question that 
revolves around immigration.
    So with that, I recognize the gentleman from Florida.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate it. And I 
appreciate you guys coming up here and talking. I been 
associated with agriculture since I was 16. I am a large animal 
veterinarian by trade and have practiced the last 30 years. I 
made my living on the south end of a northbound horse or cow, 
which was the fertilizer for your plants. Most of my questions 
have been answered today, and I appreciate you guys coming up 
here.
    And what I hear over and over again, it is the uncertainty 
that comes out of Congress or Washington that creates an 
environment of instability that we can't bank on, and we have 
to fix that. And I appreciate the input you have. I did have a 
question on immigration but I will pass that on.
    Ms. Frey-Talley, you were talking about the block grants. 
What can we do to adjust them to make the block grants more 
effective in your opinion?
    Ms. Frey-Talley. The SCFBA has offered several suggestions 
for doing that. For example, we would like to see more 
timeliness in the announcement of funds being available to 
ensure that states had plenty of time to review their requests 
and states could pursue more grower-level projects that address 
grower needs, strengthening the definition of what enhances 
competitiveness of specialty crops to lower the risk of 
potentially controversial projects, which would undermine the 
viability of the program.
    And the SCFBA would also like to see greater consideration 
of multi-state projects, which have been a fraction of the 
projects awarded. In our operations, obviously at Frey Farms, 
we operate in several different states, but I mean we are 
growing the same commodity----
    Mr. Yoho. Right.
    Ms. Frey-Talley.--throughout those different growing 
regions. So often the specialty crop industry faces challenges 
that affect an entire commodity or an entire region. So the 
coordination that would come from states more often working 
together to develop projects would serve producers well.
    Mr. Yoho. We have a great example of that with citrus 
greening. As you well know, in Florida how it has cut our 
production down about 50 percent and it extends all the way 
over to California. So we have met with APHIS and USDA and it 
is good to see them working together.
    I am going to move on to something else and open up a can 
of worms here. And it comes down to more confusion in the 
marketplace and it comes from rules, regulations, and mandates. 
I know if you had to pick an agency that is the most burdensome 
in your industry, which one would it be?
    Ms. Frey-Talley. Department of Labor.
    Mr. Yoho. Department of Labor?
    Ms. Frey-Talley. DOL, EPA.
    Mr. Yoho. Okay. EPA.
    Ms. Frey-Talley. I mean it would be a tossup.
    Mr. Yoho. All right. You know, because I look at these 
programs that they should be a facilitator to your business and 
not a debilitator to your business. And so often they come out 
with the regulations that just stifle us in business. I would 
like to get your thoughts on some of the--myself and 
Congressman Collins out of Georgia formed a regulatory study 
group to where we want to attack some of these in a nice way to 
get them to back off so that you guys aren't under that burden 
because you are talking about the FDA and the Food Safety Act, 
and if I understand that right, it is going to put a burden on 
the average farmer of about $30,000-$35,000 a year. And you 
have to look at the cost-benefit of that. Is it going to 
benefit that much more to put this kind of rules and 
regulations on you? What is your opinion on that?
    Mr. Brim. I am sorry. I turned it off to turn it on.
    Mr. Yoho. You didn't want to be recorded?
    Mr. Brim. Yes, that is right. I couldn't say it over the 
speaker. EPA and DOL and the FDA, they have placed so much more 
burdensome rules on us in the last 5 years. My cost of my 
business has gone up probably 25 percent just on government 
regulations. And I will give you a for instance just on EPA. I 
was going to put a boiler system in my greenhouse operation, 
and at the time, it was going to cost me $250,000 to put the 
boiler system in. Well, with the EPA's regs on new boiler 
emission standards, it went to $750,000.
    Mr. Yoho. Holy mackerel.
    Mr. Brim. So I couldn't do it. I had to back off of it. So 
the regs and the regulations that they put on us are 
tremendous.
    We are all very concerned about food safety, but we think 
that the FDA has gone overboard. I am a cantaloupe grower as 
well and I think that they are fixing to come test all of our 
farms, and they are going to find something either out in the 
field or wherever----
    Mr. Yoho. Right.
    Mr. Brim.--but what I would like for them to do is test 
after we have packed, not in the field because we know it is in 
the fields. We know it is there. So what we need is less 
regulations on what we are doing. And with chemical companies, 
their regulations on the chemicals of being able to get 
chemicals out of EPA back to us for our disease or whatever 
that we are combating in our farming operations.
    Mr. Yoho. Well, I agree with all of what you guys have said 
because your role is to produce healthy food, and the American 
farmer has done a fantastic job and I am proud of you guys.
    Mr. Brim. Thank you.
    Mr. Bushue. I think you can probably pick an acronym, but 
with regard to Farm Bureau, right now the EPA and the 
Endangered Species Act are the ones that probably drive the 
majority of what is going on. I agree with the Department of 
Labor and the FDA, but on a broader scale, especially in the 
Northwest, the ESA drives almost everything we do and costs us 
incredible dollars just to try and figure out ways to get water 
and the other crops that we need. The pesticide products that 
we were talking about earlier are all part of that ESA rolled 
into one. But I agree with you.
    Mr. Yoho. Thank you.
    The Chairman. I now recognize the gentleman from California 
for 5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman and thank you 
to the Ranking Member and the witnesses. All of your testimony 
makes very clear why we need to reauthorize the farm bill. I 
was a part of the 2008 effort. We made tremendous gains in 
specialty crops, with the EQIP program and a host of other 
areas which you have touched upon, market access, research. 
These are all important gains that we must keep in the 2013 
reauthorization.
    We have talked a lot about specialty crops here this 
morning--but would point out that for people around the 
country, specialty crops are no more than the fruits and 
vegetables that are part of our healthy diet. We refer to them 
as specialty crops. I guess they are special because they are 
healthy and they are a good part of America's diet. I think we 
do it better in terms of quality and yield than anyone in the 
world.
    I want to note that specialty crops, or fruits and 
vegetables, employ 1.3 million people directly in the country 
and we don't have Federal program subsidies that are applied to 
other crops. In the district that Congressman LaMalfa and 
Denham and I represent, the Central Valley, the salad bowl, it 
is responsible for almost 400 crops. We are very proud of \1/2\ 
the nation's fruits and vegetables that we are able to produce.
    I think it gets overlooked that when we talk about the farm 
gate value that the fruits and vegetables and specialty crops 
that we grow account for over $44 billion of the nation's 
agricultural trade surplus. There are a lot of factors that I 
could go on to talk about. Fresno County, which I represent, 
accounts for almost $6 million of the farm gate.
    I want to get into some of the points that were raised here 
that are important as we try next month to bring the farm bill 
together. I hope we maintain the bipartisan support that I 
think is witnessed by today's testimony and by what we did last 
year.
    Let me ask if there are any changes that you think we ought 
to be making in the Specialty Crop Block Grant Program. Any of 
the three please answer very quickly because I have a couple of 
other questions I want to get to.
    Mr. Brim. Yes, sir. I think that to be effective we need 
more funding for the program.
    Mr. Costa. Any other comments? When we look at the amount 
of money that we have spent, it is a fraction of the cost of 
what we spend on the program crops. I would surmise too that we 
get a lot more bang for our buck.
    The Market Access Program again is another important part. 
Research is critical to our land-grant universities, and one 
that each of you touched upon that. Mr. Chairman, I also want 
to talk with this Committee on what I think is a bar that 
exists for some of our state universities. When we are marking 
up the bill next month, I hope we can address the issue 
because, frankly, there are a lot of good efforts that go on in 
research that are not available to our state universities in 
agricultural areas that ought to be able to participate.
    The other area I think is very important, are the efforts 
on pest detection and eradication of invasive species. 
California, like other states, have had budget cuts. Our most 
recent detection was the European grapevine moth. Over 40 
percent of all the agricultural imports come through 
California. So we are in a cutting-edge area. Money for pest 
detection and eradication is absolutely essential.
    I am glad to hear some of you talk about the nutrition 
programs, these programs not only help those who are at the 
bottom rung of our socioeconomic ladder but also they help 
American agriculture. There is a good balance there.
    So when we craft that next month, we are going to have to 
be surgical. We know the farm bill is going to be less this 
year, in funding, than it was in 2008. The Senate proposal last 
year was $21\1/2\ billion less. The House version out of the 
Committee was $35 billion less. So we know we are going to take 
haircuts in all areas. We have to be smart about how we do this 
to ensure that we do our best to represent America's 
agricultural producers, which still, as the song goes, nobody 
does it better, in my opinion. And I am a third-generation 
farmer.
    So, again, I want to thank all of you. I want to thank, Mr. 
Chairman, for this hearing. I look forward to working with all 
of you next month as we mark up the farm bill.
    The Chairman. The chair now recognizes the gentleman from 
Illinois for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman.
    I would like the Chairman's permission to be a little less 
formal with my questioning with one of the witnesses because I 
have known Ms. Frey-Talley for a number of years and have seen 
what she has done in southern Illinois to not only become a 
global leader in specialty crops but a leader in her community 
and in her region. So without your objection, I would like to 
call you Sarah like I do every other time I see you.
    Ms. Frey-Talley. Sure.
    Mr. Davis. Is that okay?
    Ms. Frey-Talley. Sure.
    Mr. Davis. All right. All right.
    Ms. Frey-Talley. Absolutely.
    Mr. Davis. Thank you. I figured after we found out that 
thankfully we can sleep at night knowing there is no training 
ground in Imperial County, right, and the north or south end of 
a cow, if I would have been here on time, I would have been 
able to ask my questions earlier and I might not have heard 
that. So I do apologize that I was late. I had to be in the 
chair today.
    But I read your opening testimony and we met yesterday. 
However, you weren't given enough time to really tell your 
story. It is a story of success. It is a story that many folks 
in this building don't understand because when the general 
public sees somebody sit at a table like yours and offer 
testimony, it is automatically assumed that you are just a big 
business that has been handed down throughout generation after 
generation. That is not true with you and I know that. And I 
would like you to share with this Committee a little bit about 
your background and how you built your business up.
    Ms. Frey-Talley. Wow. That is probably the toughest 
question I have taken all morning.
    I actually started Frey Farms out of the back of a pickup 
truck hauling melons from southern Indiana to a small delivery 
route of independent grocery stores, and I was a teenager when 
I undertook that endeavor. And I purchased also as a teenager 
our small family farm in southern Illinois. And as I had four 
older brothers who were off to college, one by one they came 
home to join me in the business as I began to grow up through 
the production of specialty crops. As most of your probably 
aware, you can't survive on 100 acres growing corn and 
soybeans. So we had to find ways to diversify our business with 
the smaller amount of acres.
    So, like I said, as I grew the business, one by one of my 
brothers came home to join me in the business, and we started 
buying up other small farms in other states across the country. 
And now we grow several thousands of acres of fruits and 
vegetables in a multi-state region.
    Mr. Davis. Well, thank you, Sarah, very much. You epitomize 
the American dream when it comes to agriculture. I thank you 
for what you do.
    With the rest of my time, I apologize if I am repetitive 
with any of the questions that may have been asked, but that is 
the problem of asking the questions late in the hearing. I 
would, however, like to start with you, Sarah, and move on to 
the other two especially in regard to food safety. But 
specifically for you, what investments at Frey Farms have you 
made to strengthen food safety?
    Ms. Frey-Talley. Food safety has obviously always been a 
top priority for our company. We work with most major 
retailers, Wal-Mart, Kroger, Target, so on and so forth. And in 
our company we have invested in a director of food safety that 
not only oversees the compliance within our operations, but 
also consults with our contract growers as well.
    Frey Farms, we are GFSI-compliant. I am not sure if you 
know what GFSI is, but GFSI is the Global Food Safety 
Initiative, and over the last year during the 2012 growing 
season, all of our farms and facilities that we operate 
received a superior rating with GFSI.
    So the Food Safety Modernization Act, the proposed rules 
that are coming out and the outline for that really for our 
industry and for what we are doing at Frey Farms is really not 
much different. I don't know that there is going to be a huge 
change in our operation because we have been compliant over and 
above what the industry standards have been. But I know that 
there are going to be monetary investments that will have to be 
made throughout the industry to implement the new guidelines.
    Mr. Davis. That is the point I wanted you to make is that 
you have already been leading the way in food safety.
    Ms. Frey-Talley. Yes, sir.
    Mr. Davis. And your industry has, too. So thank you for 
your testimony. I have run out of time so I can't ask another 
question, although what it would have been was what is the 
biggest barrier you have to growing your business? And feel 
free to answer that or the food safety question and then I will 
not get my mike turned on again because the Chairman will now 
tell me to shush.
    Mr. Brim. Thank you. I think food safety has been our 
priority in our business. Myself went to the State of Georgia 
to set up a voluntary food safety program back 10 years ago. We 
have implemented those programs. We have two food safety people 
on staff that work only in food safety. We have just recently 
established the ECGA, which is the Eastern Cantaloupe Growers 
Association where we have implemented the GFSI audits for 
cantaloupe since we have had the problems with cantaloupes in 
the last 2 years. We think it is very important and we went 
above and beyond the GFSI audit with eight different other 
sections to implement that will bring our standards higher than 
GFSI.
    So we are very serious about it and we are hoping that all 
of our growers that grow cantaloupes will join our ECGA so that 
we will all be on the same page, and then we won't have an 
opportunity to lose a lot of money because somebody hadn't 
participated in food safety.
    Mr. Bushue. I am going to take the last question. I think 
probably the litigious regulatory framework within which we 
operate is probably the greatest barrier to us growing our 
business and those across the United States.
    The Chairman. The gentlelady from Washington is recognized.
    Ms. DelBene. Thank you, Mr. Chairman. And thanks to all of 
you for being here and sharing your thoughts with us. I really 
appreciate it.
    I represent the northwest part of Washington, a lot of 
dairy and berry specialty crop area. I recognize how important 
it is to pass a 5 year farm bill in order to provide certainty 
for farmers across the country. So, I too, would like to thank 
Chairman Scott and Ranking Member Schrader for having this 
hearing today to discuss the incredible importance of specialty 
crops.
    Oftentimes, specialty crops aren't talked about as much as 
traditional commodities. I have to remind folks in my neck of 
the woods, mentioned before what specialty crops are because 
our terminology is not used broadly. They are an increasingly 
important role in agriculture, and some estimates place 
specialty crops at more than \1/3\ to \1/2\ of the value of the 
U.S. farm crop production in a given year.
    I am proud to be introducing a resolution tomorrow that, 
with the support of the Specialty Crop Farm Bill Alliance, will 
highlight the importance of specialty crops in the fact that 
priorities like Specialty Crop Block Grants and the Specialty 
Crop Research Initiative deserve full consideration and 
funding.
    I thank my colleagues on the Subcommittee who have already 
lent their support, and I encourage and respectfully ask others 
to continue that support, too, so that we can have a strong 
resolution out there and make a strong point on specialty 
crops.
    In particular, we talked a lot about the importance of the 
research programs. I wonder if any of you have examples of the 
impact of not including research funding would have, going 
forward, and on projects that you might have been involved 
with. I think it is important that we realize you can't start 
and stop research very easily and keep projects going. So, if 
any of you have examples where that has had and impact on 
research, please tell us.
    Mr. Brim. I have had an impact on SCRI. I think that we 
need to move it back to mandatory funding actually. And we have 
had research on blueberries in the State of Georgia and 
actually doing research on E. coli and Salmonella from Georgia 
out of open pond waters. So we are right at the threshold. We 
need to support to continue this. If we don't get the support, 
the disease, insects, all the E. coli and Salmonella foodborne 
illnesses will be out of question as far as what we can do. So 
we really need to support the SCRI to be able to continue, and 
our land-grant colleges need it. So I would ask you to please 
continue your support.
    Ms. DelBene. Thank you.
    Mr. Bushue. The experiment stations in Oregon have 
continued to face decreased funding. In fact, the importance of 
that has been so critical that one of our counties actually 
created a tax base for the support specifically of its 
experiment station. So obviously, any kind of funding through 
any kind of resolution is going to benefit those research 
stations based on both crop protection, disease protection, and 
frankly even some of the new various varieties in Oregon and of 
course in the Palouse country where you are from with new wheat 
varieties. Those are all critical but not so much necessarily 
directed to specialty crops, but they are all important.
    Ms. DelBene. I know from visiting with the Washington State 
University extension, there were projects planned that couldn't 
be initiated because they had to save funding to finish 
existing projects. Some private funding has been available to 
keep some projects going, but public funding for research is 
important. That is a continuing activity and if we start 
research we should keep funding in place to the end. I think it 
is important to make sure that funding is stable and not 
something that we are starting and stopping ad hoc.
    We talked a little bit about trade and competitiveness and 
we talked about your exports. When you look at competitiveness 
in your businesses, have imports had an impact? And if so, what 
is the impact on your businesses?
    Mr. Brim. We have had some impact from imports into the 
country because of the--are you familiar with the tomato 
suspension rule from Mexico where they are having to price 
tomatoes at a certain level now? Back before that price, they 
were dumping into the United States and causing us to have a 
decrease in the prices and where it was under production cost. 
So we have had some experience with that and we really need to 
take a look at what we are doing but also make sure it is on an 
even playing field for everybody.
    Ms. DelBene. Well, thank you. I am running out of time. 
Thank you very much for your time here today. And I yield back, 
Mr. Chairman.
    The Chairman. Thank you. I now recognize Mr. LaMalfa for 5 
minutes, the gentleman from California.
    Mr. LaMalfa. Thank you, Mr. Chairman. I appreciate the time 
here today.
    And first, just to dispel something I heard a little bit 
earlier. My last name sometimes gets confused for certain 
things, and so though I am a descendent of Sicilian immigrants, 
fourth-generation here, we don't really have any ties to 
certain pronouncement of any Italian organizations that are 
sometimes depicted in film and like that. So it is LaMalfa, 
okay?
    So I represent far Northern California which borders 
Oregon, and one of the areas I am interested in that we hear 
about a lot with our specialty crops--well, I do like this term 
specialty crops as it has been discussed here. I will try and 
sell my kids on eating their vegetables and say, kids, eat your 
specialty crops, okay. Maybe that will push them a little 
closer.
    We have, as a border area in my district, what is 
affectionately known as the bug stations, the ag inspection 
stations, and I want to ask on this panel here with the Pest 
and Disease Management Program that has been in place a few 
years, how do you feel that that has helped in your area, in 
your industry during that time? Has it seen any discernible 
results in this time period? And what areas could additionally 
be addressed in that?
    And then the other half of my question really would be what 
more could we be doing with the vast amount of imports that 
seem to be coming into this country here as far as looking at 
the food safety or the pesticide especially on that? So tie all 
those, please, in on this panel here of the imports and what we 
already have going that has been in place last few years.
    And by the way, I really thought the story for Ms. Frey-
Talley was very compelling as well, so I am really glad you are 
part of this panel here today, and I like to tease our Oregon 
friends there. We want to make sure all those undocumented bugs 
don't come across and into California as well. So anyway, but 
please, on those topics.
    Mr. Bushue. Well, I will start then. Obviously, funding 
means that there are going to be more of those border 
inspection stations in northern California. We are probably not 
for them, especially if we move product into California. Sorry, 
being facetious.
    Mr. LaMalfa. Yes, what have you got to hide there?
    Mr. Bushue. Anyway, the management of pest and disease to 
our industry is critical. I am not sure when you look at the 
long-term of things, many of these diseases actually arise 
here. I mean we just faced a downy mildew disaster on our farm. 
We just threw away piles of impatiens. We face issues with 
glassy-winged sharpshooters. What are they? Glassy-winged----
    Mr. LaMalfa. That is the one.
    Mr. Bushue. Is that what they--sharp--I can't remember the 
exact name. But all these issues, sometimes there isn't an 
answer for them. But with research dollars to deal with how to 
deal with them to learn how to deal with them if we do get them 
is critical. Certainly, inspection of products coming from 
imports, I believe I heard once that less than five percent of 
all products imported in the United States are actually 
inspected. There has got to be a way to improve on that.
    But importation and exportation is a two-edged sword. One 
of the challenges of importation is when a crop is brought in 
and the market is flooded and it reduces prices and available 
markets for local growers like myself, but it also provides 
benefits if you have those products available year-round, it 
provides benefits to the consumer and provides benefits to me 
as a local grower because I have a competitive advantage over 
those products when they are imported.
    Mr. LaMalfa. Well, in summary then, you feel that on the 
import side it has been pretty inadequate and probably places 
our domestically produced crops at a greater peril in the 
market or with the pests that can get in to them? And we are 
short of times I need you to be succinct.
    Mr. Bushue. I would just sum up by saying I think it is 
important to continue to improve and increase the amount of 
inspection done on imported crops.
    Mr. LaMalfa. Okay. The others, now, do you think the Pest 
and Disease Management Program has been working? Has it 
improved anything you have seen in the last few years?
    Mr. Brim. I think that they have been working well. It 
needs some improvement on even interstate inspections from 
Florida to Georgia. We have insects and diseases coming in from 
hurricanes and they are monitoring those. And also we had what 
we call a cucurbit leaf crumple virus that came in on 
whiteflies from Texas last year they said, and they have been 
monitoring that and letting us know ahead of time what is 
happening and us to be able to be proactive and get on top of 
the disease or the insect that is causing the problem and 
allowing us to be able to manage our crops really helps us.
    Mr. LaMalfa. Okay. Ms. Frey-Talley, you got any?
    Ms. Frey-Talley. I would just piggyback on the level of 
funding. It was $71.5 million a year and I would just encourage 
the continuation of that.
    Mr. LaMalfa. Okay. All right. Thank you, panel. Thank you, 
Mr. Chairman. I yield back.
    The Chairman. I know that Mr. Schrader has another question 
that he wanted to ask, and if either of you have another 
question, we will be happy to let you ask it as well. Mr. 
Schrader?
    Mr. Schrader. Thank you, Mr. Chairman. I appreciate your 
indulgence. It is more of a heads-up because American 
agriculture and our specialty crops in particular face a whole 
new threat that has not been talked about or identified. In the 
Pacific Northwest we have a new pest that is called the 
Department of Labor that is now going after fresh fruit and 
vegetable growers using an outdated 1930s ``hot goods'' order 
that is frankly ignoring due process and making criminals or 
implying criminality to people who don't have a chance to 
defend themselves.
    I would like the Mr. Bushue, who is the President of the 
Oregon Farm Bureau and Vice Chair of AFBF to talk about this 
new threat and how we are trying to get this issue resolved for 
specialty crop growers across this country.
    Mr. Bushue. Thank you, Congressman Schrader. I appreciate 
your efforts on behalf of Oregon's growers and frankly the 
nation's growers on this very important issue.
    I will make this quick. We had some blueberry growers who 
were visited by DOL. DOL arbitrarily decided that no employee 
could pick more than 50 pounds of blueberries in an hour, and 
if they did, they must be joining pick tickets with other 
employees. DOL calls them ghost employees. DOL levied a fine, I 
believe, it was $160,000 on the grower and withheld his ability 
to ship, pick, or sell those products. They also notified the 
purchasers of those products through what is called a ``hot 
goods'' order.
    Now, I am not going to get into the legalities of it, but 
the challenge was three-fold. One, they had made this 
determination without any basis in fact, without any 
verification that 50 pounds an hour was indeed a maximum. In 
fact, the payroll records and the surveys we have done and that 
ex-DOL staff have done determined that many of these employees 
are picking 100 to 110 pounds of fruit an hour.
    The final challenge was is that DOL said to the grower they 
would only release this product to be shipped and sold provided 
the grower sign an order. The order said effectively the grower 
could not challenge or appeal the DOL decision. Essentially 
saying, ``We are guilty, and here is $160,000.'' I believe it 
has been almost 400 days now since the order. To our knowledge, 
none of the employees have received any of those funds because 
there are no ghost workers. They don't exist. There are no 
records of those people ever existing, so basically, DOL has 
$160,000 they didn't have before at the expense of Oregon 
growers.
    But the biggest challenge to this is that the DOL has not 
responded to requests from the Oregon Congressional Delegation, 
except one, including our Senators. DOL has not provided an 
effective response or answers to our questions. And thankfully, 
due to Congressman Schrader, we are not going to let this rest. 
Thank you very much.
    Mr. Schrader. Thank you. I yield back. Thank you, Mr. 
Chairman.
    The Chairman. Would any of you like to ask additional 
questions?
    The gentleman from Florida.
    Mr. Yoho. Thank you, Mr. Speaker. I had one more question I 
wanted to ask you guys. Your opinion of country-of-origin 
labeling, if you haven't answered that when I stepped out, how 
do you stand on that?
    Mr. Brim. I think that it is a good idea to have country of 
origin where it is at so people know where they are buying 
products from.
    Mr. Yoho. Right.
    Mr. Brim. So I don't think it is mandatory right now, but I 
think it is probably a good idea.
    Mr. Yoho. Okay. Yes, I have heard that. On other industries 
in ag they are not so keen on it, so I just wanted to get your 
opinion on that. Ms. Frey?
    Ms. Frey-Talley. I actually think it is a great idea. I 
mean we have been following for well over 10 years on all of 
our products.
    Mr. Yoho. Okay. And do you think that will facilitate you 
in foreign trade? You said you weren't doing any exporting 
right now. Is that just because you haven't developed that 
market?
    Ms. Frey-Talley. We haven't been aggressively growing our 
business due to the labor shortage.
    Mr. Yoho. Okay.
    Ms. Frey-Talley. So at some point when we have a solution 
there, we might export.
    Mr. Yoho. Thank you.
    Mr. Bushue. I was just going to say I know that it has 
created some challenges to WTO and some of the trade 
agreements, and we are recognizing that. Currently, we are very 
supportive of voluntary country-of-origin labeling.
    Mr. Yoho. All right. Good enough. Thank you. I yield back, 
Mr. Speaker.
    The Chairman. The gentleman from Illinois.
    Mr. Davis. I do get to talk again. A question I have----
    The Chairman. The gentleman's time has expired.
    Mr. Davis. And you said we don't have fun here in Congress. 
Thank you, Mr. Chairman.
    I would like to ask each of you starting with Sarah. As a 
Committee that has jurisdiction over research and research 
prioritization, what can we do to make it easier for you to 
work with our universities, with our land-grant universities 
like the University of Illinois that is in my district that I 
know Sarah has worked with in the past. What can we do to help 
make that easier for you to work with those institutions to 
better address our specialty crop issues?
    Ms. Frey-Talley. I think that there is always room for more 
education and awareness of the programs. I think one of the 
points that was brought up earlier about the research funding 
to make that more available to state universities such as U of 
I. But I think just communication. I think there are a lot of 
growers in the State of Illinois that are not aware that they 
have that information, those resources available to them, and I 
think that as some of the departments and associations started 
talking to each other more to get that information out to 
growers and let them know that they can be working with 
universities, their local universities and such that would be 
good like the Illinois Specialty Crop Growers Association, they 
could get the message out to their members and then also be 
very instrumental in identifying the specific crops in the 
state, whereas research projects would be needed and therefore 
funding provided.
    Mr. Brim. I think there is a great need for more funding 
available for us and our land-grant colleges. I think it is a 
great opportunity for all of us to work with our land-grant 
colleges and I do already work with them but also to have input 
in what their research is working on. Sometimes we get things 
out maybe in upper right field and it should be down the 
center. So with growers participating in the projects, it 
allows us to have a little more input in what they are 
researching and not get way out there.
    Mr. Bushue. On the nuts and bolts of it, you can make sure 
that the funding is there and then you can make sure that it is 
actually appropriating the money is spent. I mean those two 
factors, make sure that they are in your farm bill and your 
budget, it is there, and then put pressure on the appropriators 
to make sure that they actually spend those dollars on the 
land-grant institutions.
    Mr. Davis. I yield back.
    The Chairman. Before we adjourn, Mr. Schrader, do you have 
any closing comments?
    Mr. Schrader. I do not, sir.
    The Chairman. I would like to thank all of you for coming 
in and spending time with us today. We had a good hearing. We 
had a tremendous number of Members here, a lot of questions, a 
lot of information that you provided for us. I think the one 
thing that this Committee hears over and over loud and clear is 
about the burden that the regulatory agencies are putting on 
your industry and other industries, and whatever we can do to 
help with that, we will in a bipartisan manner.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any questions posed by a Member. This hearing 
of the Subcommittee on Horticulture, Research, Biotechnology, 
and Foreign Agriculture is adjourned. Thank you.
    [Whereupon, at 11:37 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Statement by Steve Barnard, President and Chief Executive
    Officer, Mission Produce Company; Chairman of the Board, Western
                          Growers Association
    Chairman Scott, Ranking Member Schrader, and Members of the 
Subcommittee, thank you for the opportunity to provide written 
testimony to the House Agriculture Committee regarding the fresh 
produce industry's priorities in the new farm bill. My name is Steve 
Barnard. I am the President and CEO of Mission Produce Company, located 
in Oxnard, CA. Since I founded Mission Produce in 1983, it has since 
grown to become a global entity in the avocado and asparagus industry. 
In addition to serving as President of Mission Produce, I also 
currently serve as Chairman of the Board for Western Growers 
Association, an agricultural trade association headquartered in Irvine, 
California. Western Growers members are small, medium and large-sized 
businesses that produce, pack and ship almost 90 percent of fresh 
fruits, nuts and vegetables grown in California and approximately 75 
percent of the fresh fruits, nuts and vegetables grown in Arizona. 
Western Growers members produce in--and directly contribute to the 
economies of--over 25 states. In total, Western Growers members account 
for nearly half of the annual fresh produce grown in the United States, 
providing American consumers with healthy, nutritious food. Indeed, 
Western Growers' has long had the slogan: ``We grow the best 
medicine''.
    As the Committee knows, growers in our segment of agriculture 
represent nearly 20% of all of agriculture's cash receipts. We also 
account for a significant segment of agricultural exports. The fruit 
and vegetable agriculture market segment is benefiting from the call 
from Americans to eat healthier and we are in an exciting time. As a 
mark of how our segment has done, we are one of the few sectors within 
agriculture in which young people and new entrants are joining the 
ranks of farmers helping to lower the age of producers. Yet with all 
the market forces at play within our industry, events in Washington are 
no less exciting today and 2013 might come to be seen as a historic 
year for the specialty crop industry. This year our industry faces the 
prospect of passing two significant pieces of legislation that will 
help our short and long-term prospects: the farm bill and an 
immigration reform bill.
    The new farm bill provides an opportunity to provide meaningful 
investments in specialty crops to enhance the competitiveness and 
profitability in this strategic area of U.S. agriculture. I want to 
acknowledge the efforts of Congressional champions who have over the 
years worked to ensure that our industry has a ``seat at the table'' 
within the farm bill. After years of hard work, we have the opportunity 
to maintain and build upon the work that has been done.
How the Farm Bill Enhances the Horticulture Industry's Competitiveness
    The Specialty Crop Block Grant Program is one of the signature 
achievements in the 2008 bill and we strongly urge you to continue, and 
even enhance, funding for this innovative approach that creates a 
Federal-state partnership designed to enhance the competitiveness of 
the industry. Producers are interested in this program because it is 
responsive to our localized needs, unlike so many other Federal 
Government programs. As designed the program is administered by state 
governments who are able, within Federal guidelines, to tailor 
competitively selected projects to the particular concerns of specialty 
crop producers in each state in a timely fashion.
    The program's design is thus very flexible. For example California 
has used block grants to fund, among many priorities, several projects 
at the Center for Produce Safety at UC Davis. These projects addressed 
ongoing research needs to validate and improve on-farm practices to 
continuously improve food safety. With food safety modernization 
legislation now being finalized the flexibility inherent in the block 
grants are absolutely vital.\1\ California is not the only beneficiary 
of this approach. In Florida block grant funding was used to develop 
the next generation of pesticides and fungicides for avocados. Work 
funded in Minnesota helped increase the financial planning skills of 
specialty crop growers there. Funding in Oregon has helped promote 
consumption of specialty crops. Funds in Georgia have helped promote 
and develop local producers. Finally, funding in Oklahoma developed a 
curriculum to educate pre-K school children about the health benefits 
of eating specialty crops. All fifty states benefit from this program, 
and the Senate Committee version of the farm bill enhances funding for 
this critical program. We ask that the House do the same.
---------------------------------------------------------------------------
    \1\ A word on the Food Safety Modernization Act (FSMA): As Members 
of the Committee know the Food and Drug Administration came out with 
new regulations implementing FSMA earlier this year. While farm bill 
programs certainly should not ``pay'' to implement this law, farm bill 
programs can be useful in helping producers meet these burdens. Just as 
conservation programs, like EQIP, have helped livestock producers meet 
their environmental burdens, so to can programs like block grants help 
fruit and vegetable producers meet their FSMA obligations. This is 
especially the case as programs explore, on behalf of large groups of 
producers, how best to educate on the requirements as well as evaluate 
new techniques for implementation. The farm bill can thus be a 
supplement for producers as they implement this law over the next few 
years.
---------------------------------------------------------------------------
The Farm Bill as a way to Address Pest and Disease
    Every year growers across the country face potentially devastating 
outbreaks of destructive pests and debilitating disease. Growers in 
California for example face outbreaks of an invasive pest or plant 
disease on regular basis--often from foreign countries (California's 
ports process roughly 40% of all imports). We believe it is incumbent 
upon the Federal Government to support outbreak prevention efforts and 
the economic impact of that these events may cause.
    Fortunately, farm bill funding in the form of the Plant Pest and 
Disease program is used for early plant pest detection and 
surveillance, for threat identification and mitigation of plant pests 
and diseases, and for technical assistance in the development and 
implementation of audit-based certification systems and nursery plant 
pest risk management systems. Farm bill funding through the Specialty 
Crop Research Initiative (SCRI) is used to help develop the next 
generation of crops and/or technologies that will be able to better 
resist threats from pests and disease. This one-two punch of short and 
medium term efforts of identification and interdiction combined with 
long-term research is critical to our industry and must be maintained 
in order to combat current and future threats. As this Committee knows 
SCRI funding was suspended under the terms of the budget agreement 
passed at the beginning of the year. It is vital to place this program 
have permanent funding.
Ensuring that Our Nation's Children Access Fresh Fruit and Vegetables
    The 2008 Farm Bill created a firm commitment between specialty crop 
growers, and America's children and those less fortunate via the 
purchase and distribution of our fresh produce through the nutrition 
programs. Fruit and vegetable growers view those programs as important 
for both feeding our less fortunate and our nation's children who need 
assistance, while at the same time benefiting our industry 
economically. Our growers are proud to be part of those efforts and we 
want to maintain the increased role that specialty crop produce has had 
in nutrition programs since the 2008 Farm Bill as we move forward. We 
therefore view the Fresh Fruit and Vegetable program, specialty crop 
purchases in section 32 and the DOD Fresh program as important to our 
interests.
    I especially want to highlight the Fresh Fruit and Vegetable (FFVP) 
program in that regard. As this Committee knows, this program by 
providing students with a fresh fruit or vegetable snack every day at 
school, increases their consumption of a wide variety of fresh fruits 
and vegetables, creates a healthier food environment at school and 
positively affects family eating habits. This program is especially 
powerful when linked with focused educational efforts and can lead 
children down a pathway toward healthy fruit and vegetable choices. 
FFVP is a program that fruit and vegetable producers can and do 
support. While section 32 also provides funding for fruits and 
vegetables the overwhelming proportion of that money is spent on canned 
and frozen products.\2\
---------------------------------------------------------------------------
    \2\ Canned, frozen and dried fruits and vegetables typically make 
up over 97% of the fruits and vegetables purchases by USDA/AMS thru 
Section 32 (roughly $400 million annually), and supplied to child 
nutrition programs; these types of fruits and vegetables are what are 
already typically served in school lunch and breakfast.
---------------------------------------------------------------------------
    FFVP is an important outlet for children, especially those in need 
with the least means, to consume fresh fruit and vegetables--in some 
cases for the only time of the day or week and we therefore support 
keeping that program focused on fresh product.
Immigration Reform
    No discussion of American agriculture is complete without a 
discussion of labor needs and immigration reform. While I know this 
issue is not directly in the jurisdiction of this Committee or the farm 
bill, as representatives of agriculture every House Agriculture 
Committee Member should be vocal and aggressive spokespeople for the 
critical need to address labor issues. Agricultural producers across 
the country want a legal and stable workforce. Not only is 
agriculture's role in maintaining a safe and secure food supply vital 
to our economic recovery, it is critical to the strength of rural 
America. Western Growers members and their employees are members of the 
very communities in which they grow, pack, and sell products. Without a 
workable agricultural program, growers in California and across the 
country face the very real prospect of not being able to plant their 
crops or harvest them if planted. Consumers in turn will be faced with 
grocery shelves devoid of fresh fruits and vegetables, or if product is 
available it will come exclusively from far off lands.
    Securing a legal workforce is not a new challenge for agriculture. 
We've been working towards this goal for over 15 years. But Congress' 
failure to pass immigration reform, combined with a diminishing labor 
supply, threats due to I-9 audits by Immigration and Customs 
Enforcement, and now mandatory E-Verify legislation emerging at the 
state and the Federal levels, it is clear that U.S. agriculture will be 
decimated without a workable mechanism to hire and continue to employ 
the labor we need. Today in Congress, American agriculture has an 
opportunity to resolve this long-standing problem.
    Real, substantial, and effective immigration reform is being 
discussed in the halls of Congress. American farmers, from every region 
of the country, producing different products with very different 
employment structures have come together with a package of ideas. In 
turn, those agriculture employers have been able to negotiate a good 
faith package of reforms with agriculture labor that we believe will 
ensure access to a future workforce and allow existing labor to come 
out of the shadows.

  <bullet> The agreement reached between the Agriculture Workforce 
        Coalition (AWC) and United Farm Workers Union (UFW) includes 
        provisions to allow experienced but falsely documented workers 
        to gain legal status and continue working in agriculture for 
        several years before adjusting to permanent resident status.

  <bullet> The agreement also includes the creation of a new 
        agriculture visa program which is intended to mirror the 
        current agriculture labor market. The program includes both an 
        ``at-will'' and a ``contract'' employment option. The H-2A 
        program has been a bureaucratic failure for many reasons, but 
        one significant cause is that the program has been operated by 
        the Department of Labor. The new visa program moves operation 
        of the program to the Department of Agriculture.

    While the agreement is not perfect, it represents a significant and 
historic achievement, bringing a unified agriculture industry along 
with the farm labor community in support of the carefully negotiated 
proposal. We urge the Agriculture Committee's support for this landmark 
agricultural labor reform agreement and encourage that language 
representing this agreement be included in whatever the House passes. 
We need each Member of this Committee to be a strong advocate for 
agriculture and pass this agreed to language.
Potential Growth in Crop Insurance
    Specialty crop producers across the country have become 
increasingly familiar with crop insurance and this certainly has been a 
hot topic during this farm bill debate. While fruit and vegetable 
producers are interested in exploring how crop insurance could be 
useful to our industry, we also want to ensure that changes to the 
system do not distort normal market cycles. From that perspective we 
want to first make sure that any newly developed crop insurance 
products ``do no harm''. Why do we have concerns? We are worried that 
ill-conceived or overly generous crop insurance products might distort 
market signals. In 1999 RMA authorized a watermelon program in several 
states--a program that had disastrous national consequences. When that 
program rolled out watermelon plantings and production in Florida and 
Texas increased dramatically causing the national watermelon market to 
collapse in turn adversely impacting many, including producers in 
California and Arizona. While we know that this program was not 
properly implemented and agency changes have been made since 1999, this 
example serves as a cautionary tale to us about how an expansion of 
crop insurance could lead to market distortion and cause a functioning 
market to collapse. With very tight balances between supply and demand, 
and limited shelf life, over-supply driven by a poorly designed crop 
insurance product is a real concern.
    Given these concerns, we are pleased that last year's Senate 
version of the farm bill put some boundaries and speed bumps in place. 
The Senate bill ensures that when new products are developed, they are 
accompanied by (1) econometric modeling which could help evaluate 
market impacts of the new product, as well as (2) industry survey data 
to determine how much of the industry is interested in developing a 
product. With safeguards like these, we believe that insurance products 
developed in the future will not repeat failures of the past. We 
strongly encourage the House to adopt these provisions as well.
    In addition to ensuring that new products ``do no harm'', we want 
to see crop insurance products developed that are useful to our 
industry. One critical area of concern that fruit and vegetable 
producers would like to see is products tailored to help growers deal 
with food safety and quarantine issues-something crop insurance to date 
has not fully addressed.
    On behalf of Mission Produce, Western Growers, and the specialty 
crop industry, I am appreciative of this Committee's willingness to 
examine the issues that affect us and how the farm bill might be 
beneficial in helping our industry thrive. We look forward to working 
with you.

                                  <all>

</pre></body></html>
